<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                       WEDNESDAY, MARCH 30, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:31 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Johnson, Cochran, Hutchison, 
Collins, Murkowski, and Coats.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENT OF MICHAEL B. DONLEY, SECRETARY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning, we welcome back the 
Secretary of the Air Force, the Honorable Michael Donley, and 
the Air Force Chief of Staff, General Norton Schwartz.
    Gentlemen, we thank you for being here with us today as we 
review the Air Force's budget request for fiscal year 2012. And 
we thank you also for submitting your prepared testimony. 
Without objection, the full statement will be made part of the 
record.
    For fiscal year 2012, the Air Force is requesting $150 
billion in base budget. This funding level is roughly equal to 
your fiscal year 2011 request. The Air Force is also requesting 
$16.4 billion for overseas contingency operations for fiscal 
year 2012, which is a decrease of $4.4 billion from last year's 
request, and reflects the ongoing drawdown from our forces in 
Iraq.
    The lack of growth in the Air Force is partly a result of 
the Secretary of Defense's efficiency initiatives, and I look 
forward to hearing today how the Air Force plans to reduce 
overhead, streamline logistics, improve satellite procurement, 
and reduce energy consumption as part of your efficiencies.
    The subcommittee commends the Department of Defense for 
examining ways to make operations more efficient and 
affordable; however, we must ensure that we are achieving true 
savings and not just deferring tough decisions to a later date.
    In addition to achieving the efficiency savings that have 
been identified, in the near term the Air Force must meet 
growing demands for cyber security and nuclear security and 
intelligence, surveillance, reconnaissance (ISR).
    In theater, the situational awareness requirements of our 
forces continue to grow. Good progress has been made toward 
achieving this goal of operating 65 continuous combat air 
patrols in theater with remotely piloted vehicles. However, the 
Air Force must still address how to fulfill long-term manpower 
requirements of these operations and how to incorporate the 
ever increasing number of ISR assets into the Air Force's force 
structure.
    Over the next decade, the Air Force will face growing 
budgetary pressures as several expensive recapitalization 
programs get underway. But, first, let me commend both of you 
on the successful award of the aerial refueling tanker 
contract. This is a critical step in replacing our aging tanker 
fleet.
    But as you know, the commencement of work on the new tanker 
comes at the same time as the development of a new penetrating 
bomber begins and Joint Strike Fighter (JSF) production ramps 
up. These efforts will place significant pressure on the budget 
at a time of tightening budgets.
    To this end, to add to the Air Force's already full plate, 
you are now heavily engaged in operations in Libya. And I look 
forward to hearing from you today about the extent of Air Force 
support to the coalition forces operating in Libya, as well as 
the cost of these operations, and what you see as the end game 
of our involvement there.
    Gentlemen, these are challenging times, to say the least, 
and we have many difficult choices in front of us. I look 
forward to working with both of you to ensure that the fiscal 
year 2012 appropriations reflects the current and future needs 
of the Air Force.
    And now, I wish to turn to our vice chairman, Senator 
Cochran, for his opening statement.
    Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you. I am pleased to 
join you in welcoming our panel of witnesses at our hearing 
today. We are looking, of course, at the budget request that 
has been submitted for the Department of the Air Force, and 
anxious to learn what the reaction of the Uniformed Services 
and the Secretary are to the budget request, and whether it 
meets the needs that you have, particularly in light of 
developments in Libya. We are interested to know what are the 
consequences in terms of the budget request of--for the actions 
that we are taking and the obligations that we have assumed in 
that part of the world. Your insights would be helpful to us to 
understand what we are facing there in terms of the need for 
appropriated dollars.
    I join the chairman in thanking you for your service. We 
appreciate very much what you are doing for the safety and 
security of our country.
    Thank you.
    Chairman Inouye. I thank you very much. And, Mr. Secretary?
    Mr. Donley. Thank you. Mr. Chairman, Senator Cochran, 
members of the subcommittee, it is certainly a pleasure to be 
here today representing more than 690,000 active duty, Guard, 
Reserve, and civilian airmen. I am also joined this morning 
with my teammate and a tireless public servant, General Norty 
Schwartz.
    We are pleased to report that America's Air Force continues 
to provide the Nation's unmatched global vigilance, reach, and 
power as part of the joint team, with an uncompromising 
commitment to our core values of integrity, service before 
self, and excellence in all we do.

                      AIR FORCE GLOBAL OPERATIONS

    Today, we are bringing this capability to bear in 
operations across the full spectrum, from humanitarian support 
to our Japanese friends in need, to the ongoing stability and 
counter insurgency operations in Iraq and Afghanistan, to the 
no fly zone enforcement and protection of the civilian 
population in Libya, to the continuous air sovereignty, space, 
and cyber, and nuclear deterrence missions--the speed, 
precision, and versatility of your Air Force is being tested 
and proven daily.
    We are, as you suggested, Mr. Chairman, requesting $150 
billion in our baseline budget, and $16 billion in the overseas 
contingency operations supplemental appropriation to support 
this work. Our budget request represents a careful balance of 
resources among Air Force core functions necessary to implement 
the President's national security strategy, and between today's 
operations and investments in the future.
    Before discussing our fiscal year 2012 budget request, I 
would like to address some unfinished business from fiscal year 
2011, and also set in context the changes in your Air Force 
over the last several years.

   EFFECTS OF OPERATING UNDER FISCAL YEAR 2011 CONTINUING RESOLUTIONS

    Operating without a defense appropriations bill in fiscal 
year 2011 is having a significant impact on the Air Force. A 
decision to extend the continuing resolution at fiscal year 
2010 levels through the remainder of this year would delay our 
ability to reach and sustain the Secretary of Defense's 
directed goal of reaching 65 MQ-1/9 Combat Air Patrols by 2013 
in support of operations in Afghanistan. And it would cause a 
production break and the likely increase in the unit cost of F-
15 radar modernization, among other programs. Deeper reductions 
to our modernization programs would be required to fund over $4 
billion in must-pay bills for urgent operational needs, like 
those in Afghanistan, Iraq, military healthcare, and the 
military pay raise of 1.4 percent, which Congress authorized, 
but which has not yet been funded. Without fiscal year 2011 
appropriations, we would face delay or cancellation of some 
depot maintenance, facilities maintenance, and other day-to-day 
activities in order to prioritize our most critical needs under 
the lower funding levels in a full year continuing resolution. 
Finally, fiscal year 2011 appropriations are also required for 
44 military construction projects now on hold, which support 
ongoing operational needs and improve the quality of life for 
airmen and their families. Passing a fiscal year 2011 Defense 
appropriations bill is essential to avoid the severe 
disruptions. And we certainly appreciate, Mr. Chairman, your 
personal leadership, Senator Cochran, your personal leadership, 
and the help of this subcommittee currently underway to resolve 
this situation.

         RESHAPING THE AIR FORCE FOR PRESENT AND FUTURE THREATS

    Over the past decade, the Air Force has substantially 
reshaped itself to meet the immediate needs of today's 
conflicts and position itself for the future. While we have 
grown in some critical areas, it has been at the expense of 
others. We have added intelligence, surveillance, and 
reconnaissance capacity with 328 remotely piloted aircraft and 
over 6,000 airmen to collect, process, exploit, and disseminate 
intelligence. We added over 17 aircraft and nearly 2,400 airmen 
to bolster special operations capacity necessary in counter 
insurgency operations. We added over 160 F-22s and 120 C-17S to 
our inventory and funded over 30 satellites. We added 2,200 
airmen for critical nuclear and cyber operations and to support 
our acquisition process.
    In the same period, however, we retired over 1,500 legacy 
aircraft. We cancelled or truncated procurement of major 
acquisition programs. We shed manpower in career fields less 
critical for the current fights, and deferred much-needed 
military construction in order to balance these capabilities 
within the resources available. In all, during the past 7 
years, the size of the active duty Air Force has been reduced 
from 359,000 in 2004 to approximately 333,000 today. And the 
Air Force's baseline budget, when adjusted for inflation and 
setting aside the annual wartime supplemental appropriations, 
has remained flat.
    Looking ahead, we face a multiyear effort to recapitalize 
our aging tanker, fighter bomber, and missile forces; continue 
to modernize critical satellite constellations; meet dynamic 
and growing requirements in the cyber domain; and also replace 
aging air frames for pilot training and presidential support.
    We continue to recognize the requirement for fiscal 
restraint and are committed to remaining good stewards of every 
taxpayer dollar, improving management and oversight at every 
opportunity.

                      EFFICIENCIES ACROSS THE FYDP

    The fiscal year 2012 budget request incorporates over $33 
billion in efficiencies across the future year's defense plan, 
which will be shifted to higher priority combat capability by 
reducing overhead costs, improving business practices, and 
eliminating excess troubled or lower priority programs. By 
consolidating organizational structures, improving our 
acquisition processes, procurement, and logistic support, and 
streamlining operations, we have been able to increase 
investment in core functions, such as global precision attack, 
intelligence, surveillance, and reconnaissance (ISR), in space 
and air superiority, reducing risk by adding tooth through 
savings in tail.
    We are fully committed to implementing these planned 
efficiencies and have already assigned responsibilities to 
senior officials, and put in place the management structure to 
oversee this work and track progress on a regular basis. Having 
faced the need to reshape our force structure and capabilities 
within constrained manpower and resources over the last several 
years, we do not view the current need for efficiencies as a 
singular event, but rather as an essential and continuing 
element of prudent management in our Air Force.
    Our investment priorities remain consistent with minimizing 
risk and maximizing effectiveness and efficiency across the 
full spectrum of potential conflict. Proceeding with the 
development and production of the KC-46 tanker aircraft, 
implementing the Joint Strike Fighter restructure, and meeting 
the Combatant Commanders' need for more ISR, investing in the 
long-range strike family of systems, including a new 
penetrating bomber, and enhancing space control and situational 
awareness, all remain critical capabilities for both today's 
and tomorrow's Air Force.
    In addition to these investments, we will continue to 
address challenges in readiness, in particular, the slow, but 
persistent, decline in materiel readiness most notable in our 
non-deployed forces, and the personnel challenges across 
roughly 28 stressed officer and enlisted career fields, both of 
which are the result of today's high operational tempo.

                     CARING FOR TOTAL FORCE AIRMEN

    And, of course, Mr. Chairman, we will continue to support 
our Active, Guard, Reserve, and civilian airmen and their 
families with quality housing, healthcare, schools, and 
community support.
    With respect to healthcare, I would like to convey the Air 
Force's support for DOD's TRICARE reforms that will modestly 
increase premiums for working-age retirees, premiums that have 
not changed since they were initially sent--set in 1995.
    Going forward, we must continue to seek and develop reforms 
in the benefits that our men and women in uniform earn to make 
them economically sustainable over the long term.

                           PREPARED STATEMENT

    Mr. Chairman, good stewardship of the United States Air 
Force is a responsibility that General Schwartz and I take very 
seriously, and we remain grateful for the continued support and 
service of this subcommittee. We look forward to discussing our 
proposed budget.
    Thank you.
    Chairman Inouye. All right. Thank you very much, Mr. 
Secretary.
    [The statement follows:]

         Prepared Statement of the Honorable Michael B. Donley

    The United States faces diverse and complex security challenges 
that require a range of agile and flexible capabilities. From the 
ongoing conflicts in Afghanistan and Iraq, to potential confrontation 
with aggressive state and non-state actors, to providing humanitarian 
assistance, the United States Air Force continues to provide 
capabilities across the full spectrum of potential military operations. 
The Air Force's fiscal year 2012 budget request aims for balance and 
versatility to meet the demands of this environment. We believe the 
request enables our efforts to prevail in today's wars, prevent and 
deter conflict, and prepare to defeat adversaries across the range of 
military operations--all the while preserving and enhancing the all-
volunteer force.
    We remain mindful of our Nation's budgetary challenges and fiscal 
constraints, because fiscal responsibility is a national security 
imperative. This environment requires that we balance our capabilities 
between current combat operations and the need to address emerging 
threats and challenges. We continue to pursue cost-effective systems 
that leverage existing capabilities and maximize interoperability and 
integration of legacy and future systems. The commitment of the Air 
Force to collectively discern, access and provide tailored and scalable 
effects with Global Vigilance, Reach, and Power virtually anywhere in 
the world is reflected in our acquisition priorities. These priorities 
are:
  --Tanker Recapitalization (KC-X);
  --Joint Strike Fighter (F-35) Restructure and F-16 Service Life 
        Extension Program (SLEP);
  --Intelligence, Surveillance, and Reconnaissance (ISR) Systems;
  --Long-Range Strike Family of Systems; and
  --Space Systems and Launch Capability Acquisition Strategy.
    Global Vigilance is the ability to provide surveillance around the 
world. As the demand for ISR continues to grow, the Air Force is 
aggressively fielding enhanced ISR capability and capacity across the 
widest range of military operations to counter threats and defeat our 
adversaries. The Air Force will continue to enhance space control and 
situational awareness capabilities, as well as space management, to 
ensure we operate effectively in the increasingly competitive, 
congested and contested space domain. This includes implementing the 
Evolutionary Acquisition for Space Efficiency (EASE) concept to drive 
down costs, improve stability in the fragile space industrial base, 
invest in technology that will lower risk for future programs, and 
achieve efficiencies through block buys of satellites. There is also an 
ongoing collaboration between the Air Force, the National 
Reconnaissance Office (NRO) and the National Aeronautics and Space 
Administration (NASA) to maintain a healthy industrial base to meet 
government launch and range requirements in an efficient manner.
    Global Reach is the ability to project capability responsively and 
advantageously without regard to distance. Air Force mobility assets 
are essential to Joint, Interagency and Coalition operations in peace 
and war as we provide critical supplies and personnel through strategic 
and tactical delivery--airlift and airdrop. Air refueling aircraft play 
an integral role by providing reach and persistence for aircraft to 
operate inter-theater and intra-theater, alike. As such, the 
procurement of the KC-X remains the top acquisition and 
recapitalization priority for the Air Force.
    Global Power is the ability to hold at risk any target in the 
world. The Air Force must continue to modernize and recapitalize our 
aircraft inventory to remain effective against global and regional 
competitors as they continue to modernize and improve their own air 
defense capabilities and harden valued targets. We will continue to 
work with Congress to enhance capabilities in our existing fighter and 
bomber fleets to mitigate delays in the F-35 development and 
procurement programs. One key to that mitigation effort is a focused F-
16 SLEP. We must sustain our ability to consistently hold any target on 
the planet at risk with the development of a Long-Range Strike Family 
of Systems capability--including a new penetrating bomber--to create 
desired effects across the full range of military operations in both 
permissive and contested environments. Last, a multi-faceted effort is 
underway to enhance our air superiority legacy fighters, maximize the 
capabilities of the F-22 fleet, invest in preferred air-to-air 
munitions, and optimize our electronic warfare systems.
    The Air Force must take the necessary steps today that will allow 
future generations to continue to provide consistent, credible and 
effective air, space and cyber capabilities on which our Nation 
depends. Our ability to do so is constrained by the increasing costs to 
design and build platforms and by the accelerating costs of personnel 
benefits and other must-pay operational bills in a particularly 
challenging budget environment. We will ensure we maximize combat 
capability out of each taxpayer dollar by identifying waste, 
implementing efficiencies, pursuing continuous process improvement 
initiatives and making smart investments. We will provide the necessary 
capability, capacity and versatility required to prevail today and in 
the future.
    Last, our fiscal year 2012 budget request recognizes the need to 
properly manage our force structure. We recognize that our most 
valuable assets--our people--are critical to achieving our broadest 
strategic goals, and our near- and far-term mission success is 
inextricably linked to the overall well-being of our Airmen and their 
families.
    Operating without a defense appropriations bill in fiscal year 2011 
is having a significant impact on the Air Force. Under a Continuing 
Resolution (CR), we are unable to raise procurement to requested levels 
in several critical areas. Constraining MQ-9 procurement to 24 aircraft 
versus the 48 requested will delay our ability to reach the Secretary 
of Defense's directed goal of 65 MQ-1/9 Combat Air Patrols (CAPs) by 
2013 in support of ongoing operations in Afghanistan. The inability to 
initiate a contract for the Wideband Global SATCOM (WGS)-7 satellite 
will cause a production break and a likely increase in unit cost. 
Production breaks and delayed procurements will also negatively affect 
the Joint Air-to-Surface Standoff Missile (JASSM), F-15 active 
electronically scanned array (AESA) radar, F-15 APG 63 radar, and other 
programs. In addition to these impacts, deeper reductions to our 
modernization programs would be required to fund over $3 billion in 
must-pay bills for urgent operational needs in Afghanistan and Iraq, 
military healthcare, and the military pay raise of 1.4 percent, which 
was authorized by Congress and is being implemented, but was not 
funded. Fiscal year 2011 appropriations are also required for 75 
military construction (Milcon) projects, now on hold, which support 
ongoing operational needs and improve the quality of life for Air Force 
personnel and their families. Last, the Air Force would have to delay 
or cancel some depot maintenance, weapon system sustainment and other 
day-to-day activities in order to prioritize our most critical needs 
under the lower funding levels in a full year CR.
    In summary, continuing the CR far beyond March 4 would severely 
impact program and budget execution in the Air Force, delaying 
modernization and causing significant restructuring and potential cost 
increases to many acquisition programs, and creating larger backlogs 
for maintenance and other operations. Passing a fiscal year 2011 
defense appropriations bill is essential to avoid these severe 
disruptions.
    In June 2010, the Secretary of Defense challenged the Services to 
increase funding for mission activities by identifying efficiencies in 
overhead, support and other less mission-essential areas. The 
efficiency target for the Air Force was $28.3 billion across this 
Future Years Defense Program (FYDP). The Air Force is committed to 
enhancing capabilities by reducing expenses allocated to overhead and 
support functions, while shifting resources to modernization and 
readiness programs.
    As part of the fiscal year 2012 budget, the Air Force exceeded our 
efficiency target by $5 billion and identified $33.3 billion in 
efficiencies in an effort to make resources available to better support 
warfighter and readiness programs across the FYDP. Examples of these 
efficiencies include:
  --Consolidating three Numbered Air Forces with colocated Major 
        Command staff and consolidating the activities of four Air and 
        Space Operations Centers into two, thereby achieving a 
        redistribution of 347 military authorizations (228 in fiscal 
        year 2012 and 119 in fiscal year 2013) across the FYDP and 
        eliminating 212 civilian authorizations beginning in fiscal 
        year 2013 which will save $100.1 million across the FYDP;
  --Consolidating installation support management to improve Air Force-
        wide standardization and prioritization;
  --Reallocating 5,600 active duty billets over the FYDP from lower 
        priority support functions to higher priority, growth areas;
  --Saving more than $3 billion from anticipated growth in Weapon 
        System Sustainment (WSS) portfolio efficiencies across the FYDP 
        by reviewing operational requirements, depot processes and the 
        sustainment of the supply chain without degrading operational 
        capabilities or support to the warfighter;
  --Reducing fuel consumption within the Mobility Air Forces by 
        leveraging proven commercial aviation practices for flight 
        planning and weight reduction, and implementing other 
        initiatives to save $715 million (net) across the FYDP;
  --Reducing acquisition costs by consolidating services, scrutinizing 
        contracts, reducing contract support, and more efficiently 
        using resources to deliver capabilities and support to the 
        warfighter;
  --Reducing information technology costs by more than $1.2 billion 
        over the FYDP by adopting DOD-level Enterprise Information 
        Services including enterprise core services, consolidating and 
        standardizing the network information technology infrastructure 
        from nine Air Force and Air National Guard Regional Processing 
        Centers to five centrally controlled centers, and migrating 
        current and developmental applications, services and data to 
        DOD-provided enterprise computing centers; and
  --Improving our procurement of satellites with a new acquisition 
        strategy which, subject to congressional approval, will lower 
        procurement costs and stabilize the defense industrial base.
    The realization of these efficiencies allowed the Air Force to 
reallocate funding to modernize and recapitalize weapons systems, 
improve capabilities and enhance warfighter operations. Examples of 
these enhancements include:
  --Investing in the Long-Range Strike Family of Systems, including a 
        new penetrating bomber as a key component of the Joint 
        portfolio;
  --Investing an additional $3.5 billion to fund the Evolved Expendable 
        Launch Vehicles (EELV) program to the Office of the Secretary 
        of Defense (OSD) Independent Cost Assessment, with the 
        Department of Defense (DOD) committed to buying five boosters 
        per year to meet national space launch requirements and 
        stabilize the industrial base;
  --Repurposing 5,600 active duty billets over the FYDP to support ISR 
        capability, U.S. Pacific Command force structure requirements, 
        Total Force Integration, the U-2 continuation, building 
        partnership capacity, increasing support to the Air Force 
        District of Washington UH-1N mission, among other increases;
  --Procuring an additional 16 simulators for F-35 aircrew training 
        bringing the total procurement to 30 simulators to ensure an 
        effective training pipeline throughput and operational unit 
        pilot proficiency and cost control;
  --Recapitalizing the aging special operations forces MC-130H/W 
        aircraft;
  --Improving the aircraft computer infrastructure of the B-52 to 
        enable more rapid machine-to-machine retargeting;
  --Enhancing combat capability of the F-15C and F-15E with additional 
        AESA radars and electronic protection software upgrades;
  --Continuing to fund the development of next-generation Global 
        Positioning System (GPS) III Operational Control Segment;
  --Researching and developing electronic protection and suppression of 
        enemy air defense (SEAD) capabilities for the F-22;
  --Transitioning MC-12W Liberty Project from Overseas Contingency 
        Operations (OCO) funding into the Air Force baseline budget 
        beginning in fiscal year 2013;
  --Continuing maximized production of the MQ-9 Reaper to ensure 
        delivery of 65 CAPs by the end of fiscal year 2013;
  --Extending U-2 operations through fiscal year 2015 to ensure a 
        smooth high-altitude transition; and
  --Baselining the Air Sovereignty Alert program across the FYDP to 
        solidify support to homeland security operations.
    The Air Force leadership recognizes the importance of achieving 
planned efficiencies to avoid future bills and a negative impact to our 
mission and our Airmen. We are taking a long-term view of this 
initiative and will address our efficiency targets annually to further 
refine and identify follow-on opportunities. We assigned responsibility 
for initiatives to individual senior leaders who are developing their 
detailed implementation plans to oversee our efforts. Quarterly 
executive-level reviews will monitor plans and progress, and ensure 
that efficiency initiatives do not inadvertently impact readiness, 
mission performance, or quality of life for our Airmen. Our continuous 
process improvement program, Air Force Smart Operations for the 21st 
Century (AFSO21), is well-established and provides our Airmen with the 
tactics, techniques and procedures to improve performance while 
achieving efficiencies.
    In order to ensure Air Force leadership has reliable and relevant 
financial information to monitor our efficiency goals, we are further 
emphasizing our work in Financial Improvement and Audit Readiness. In 
fiscal year 2012, the Air Force is dedicating $29 million to audit 
readiness and validation and $327 million to modernize our business 
systems.
    Mission effectiveness of the Air Force is linked to the overall 
well-being of our Airmen and their families. The Air Force will 
continue to find innovative and efficient ways to provide and sustain 
programs that support our Airmen and their families, including our 
critical civilian personnel. We must ensure programs and services 
foster a greater sense of community, strengthen a sense of belonging 
and value to the Air Force, and improve Airman and family resiliency.
    As mission demands continue to evolve and budgets flatten, the Air 
Force is making key strategic choices to leverage the collective talent 
and experience of our Total Force. Through improved integration across 
the Total Force Enterprise of active, Guard and Reserve forces, we are 
seeking greater Service-wide efficiencies and effectiveness to maximize 
combat capability for the Joint warfighter. We are developing business 
case analyses to inform decisions on how best to structure Active and 
Reserve Component relationships, especially in new areas. As missions 
such as cyber and dynamic battlefield ISR mature, so too will the Total 
Force investment in these areas.
    End Strength, Retention and Recruiting.--The overall programmed Air 
Force end strength for fiscal year 2012 is more than 690,000 personnel. 
This includes 332,800 active duty, 71,400 Reserve, 106,700 Air National 
Guard, and more than 182,000 civilian personnel. To support the efforts 
of our Airmen and to recruit and retain the highest quality Air Force 
members, the fiscal year 2012 budget request includes $30.2 billion in 
military personnel funding and a military pay raise in fiscal year 2012 
of 1.6 percent.
    The retention rates in the Air Force are the highest they have been 
in 16 years and recruiting has also been successful. Therefore, the 
$626.6 million requested in the fiscal year 2012 budget for recruiting 
and retention bonuses is highly targeted. Bonuses are proposed for 
specific career fields with critical wartime skills including pilots, 
control and recovery, intelligence, contracting, security forces, 
health professionals, civil engineering, special operations and 
explosive ordnance disposal.
    In addition, the current economy has slowed attrition from the Air 
Force and had the effect of increasing active duty manning above 
planned levels. As a result, the Air Force is making difficult, but 
fiscally responsible decisions to implement force management programs 
that allow us to remain within authorized end strength ceilings. 
Specifically, we continue to progress toward an active duty end 
strength goal of 332,800 by the end of fiscal year 2012. To address 
excess end strength, particularly in the officer force, we will reduce 
accessions, continue to waive Active Duty Service Commitment and Time 
in Grade requirements for voluntary separations and retirements, 
continue to conduct enlisted Date of Separation rollbacks, and 
institute involuntary separation and retirement programs for officers 
through Selective Early Retirement, Reduction in Force and Force 
Shaping boards. We will also work with OSD to seek additional 
legislative authority to help the Air Force meet end strength ceilings 
by the end of fiscal year 2012 and maintain the appropriate level in 
fiscal year 2013 and beyond.
    Civilian Workforce.--The Secretary of Defense has limited our 
civilian workforce to fiscal year 2010 levels, with limited growth 
allowed for specific priorities like the acquisition workforce. This 
policy will require significant changes to previously planned civilian 
growth. The Air Force will also conduct an enterprise-wide review of 
civilian personnel end strength to facilitate DOD's efforts for 
efficiencies and reinvestment possibilities.
    Contractor Reductions.--The Air Force is looking at the way we 
utilize the contract workforce as we answer the Secretary of Defense's 
challenge to find efficiencies and to reduce duplication, overhead, and 
excess, and reinforce our culture of efficiency and restraint across 
the Air Force. This will impact the service support contract workforce 
in the following areas:
  --Reduce our staff support contractor workforce by 10 percent per 
        year, over the next 3 years in accordance with DOD's guidance 
        with an estimated fiscal year 2012 savings of $127 million; and
  --Reduce the funding for advisory studies by 25 percent from the 
        fiscal year 2010 levels over the FYDP with an estimated fiscal 
        year 2012 savings of $41 million.
  --The Air Force identified two other areas that will result in 
        reductions to its headquarters contract workforce and release 
        resources for warfighter use. These include: Knowledge-based 
        services estimated at $252 million in fiscal year 2012; and 
        Program Management Administration estimated at $191 million in 
        fiscal year 2012.
    Man-Days.--Active Duty Operational Support days play a critical 
role in resourcing extended military operations. They allow for the 
active duty appropriation to pay for temporary use of National Guard 
and Reserve personnel to support military missions beyond the regular 
component's capability. In support of the Secretary of Defense's 
efficiency initiative, the Air Force reduces, by 1,250 work years, the 
Reserve Component fiscal year 2012 man-day program that supports non-
critical administrative and overhead activities.
    The demand for global mobility and related airlift support remains 
high in fiscal year 2012 as the Air Force will continue to support a 
large footprint in Afghanistan. The Air Force identified $1.4 billion 
to support fiscal year 2012 OCO requirements. Our reliance on the Total 
Force is by design, and we recognize and value the contributions of the 
members of the Reserve Components who have performed tirelessly in 
support of our Nation. The Air Force will continue to prioritize 
Reserve Component requirements prudently and in accordance with mission 
needs as we transition to a lower steady state tempo.
    Diversity.--The Air Force widened the aperture beyond traditional 
views of diversity, and defined it to include personal life 
experiences, geographic background, socioeconomic background, cultural 
knowledge, educational background, work background, language abilities, 
physical abilities, philosophical/spiritual perspectives, age, and 
more. We declared diversity a military necessity, as both a source of 
greater combat effectiveness and as means toward a force that more 
closely mirrors American society. Deliberate plans are being developed 
to attract, recruit, develop, and retain a more diverse force.
    Repeal of ``Don't Ask, Don't Tell''.--The Air Force will execute 
the plan established by OSD for the effective implementation of the 
repeal of Section 654 of Title 10 of the United States Code, known as 
``Don't Ask, Don't Tell.'' We are also developing strategic 
communications, and we will provide initial and sustainment education 
and training at all levels.
    Readiness.--With Air Force personnel deployed to more than 135 
locations worldwide on an average day, we rely heavily on the Total 
Force. Currently, more than 37,000 Airmen are deployed and more than 
57,000 are forward-stationed. In addition, approximately 134,000 Airmen 
are directly supporting Combatant Commander requirements from their 
home stations daily. These Airmen contribute in a variety of ways, to 
include operating the Nation's space and missile forces, processing and 
exploiting remotely collected ISR data, providing national intelligence 
support, operating and defending our networks, and executing air 
sovereignty alert missions.
    The Air Force has flown more than 419,000 sorties in support of 
Operations Iraqi Freedom and New Dawn and more than 244,000 sorties in 
support of Operation Enduring Freedom since September 11, 2001. During 
this time, we delivered over 6.3 million passengers and 3.3 million 
tons of cargo, employed almost 23,800 tons of munitions, flew more than 
15,750 personnel recovery sorties recording over 2,900 saves and 6,200 
assists, and transported more than 85,000 patients and more than 15,400 
casualties from the U.S. Central Command alone. In 2010, our Airmen 
averaged approximately 400 sorties every day.
    This level of activity reflects our commitment to provide Global 
Vigilance, Reach, and Power in today's Joint fight. However, our high 
operations tempo (OPTEMPO) has also had some detrimental effects on our 
overall readiness. Readiness for full spectrum military operations is a 
challenge for our combat air forces and some other limited-supply/high-
demand aviation units. Since 2003, we have seen a slow but steady 
decline in reported readiness indicators. Our OPTEMPO since 2001 has 
produced lower deploy-to-dwell ratios for high-demand skills. At 
present, 19 enlisted and nine officer career fields are ``stressed.'' 
We have improved funding to WSS; however, sustainment challenges 
continue as we field new weapon systems and balance contract versus 
organic sources of repair. To address these readiness issues, we must 
keep aircraft recapitalization and procurement programs on track and 
continue managing our force to ensure the right numbers and mix of 
skills in our highly tasked and highest priority mission areas.
    The Air Force Core Functions, assigned by the Secretary of Defense 
and recognized by the Joint community, provide a framework for 
balancing investments across Air Force capabilities. While this 
document describes the Core Functions individually, we recognize the 
inherent interdependence of these capabilities within the Air Force, 
the Joint force, and throughout the United States Government. When 
considered together, the Core Functions encompass the full range of Air 
Force capabilities. The budget request in this posture statement 
provides an appropriate balance of investment across our Core 
Functions. The table below depicts the fiscal year 2012 budget request 
and the projected allocation of resources across the FYDP, by Air Force 
Core Function.

                        [In billions of dollars]
------------------------------------------------------------------------
                                                Fiscal Year
            Air Force Core Function               2012 PB        FYDP
                                                  Request
------------------------------------------------------------------------
Nuclear Deterrence Ops........................          5.2         28.0
Global Precision Attack.......................         16.0         93.7
Air Superiority...............................          9.2         46.1
Rapid Global Mobility.........................         15.9         89.5
Global Integrated ISR.........................          8.2         41.4
Space Superiority.............................         11.6         56.2
Cyberspace Superiority........................          4.6         21.9
Command and Control...........................          6.3         33.5
Special Operations............................          1.4          6.5
Personnel Recovery............................          1.6          9.0
Building Partnerships.........................          0.5          1.9
Agile Combat Support..........................         33.8        175.0
------------------------------------------------------------------------
Note 1: This table does not include OCO, Non-Blue or classified
  programs.
Note 2: The funding for Nuclear Deterrence Operations includes weapon
  systems, support systems, as well as nuclear command, control, and
  communications requirements.

                     NUCLEAR DETERRENCE OPERATIONS

    Continuing to strengthen our nuclear enterprise remains the number 
one Air Force priority, and we have taken positive steps within the 
fiscal year 2012 budget request to continue to strengthen and improve 
this Core Function.
    Air Force Global Strike Command achieved full operational 
capability (FOC) on September 30, 2010, moving all Air Force nuclear-
capable bombers and Intercontinental Ballistic Missiles (ICBMs) under 
one command. The Air Force Nuclear Weapons Center continues to pursue 
vital and deliberate sustainment of the nuclear enterprise through 
efforts such as the Air Force Comprehensive Assessment of Nuclear 
Sustainment process. Bomber force modernization continued in an effort 
to maintain a viable force beyond 2030. We have completed the 
transition to four B-52 operational squadrons with the addition of the 
69th Bomb Squadron at Minot Air Force Base, North Dakota. ICBM 
modernization and sustainment also continued with investments in new 
test equipment and launch facility environmental control systems. 
Although an initial study for the Ground Based Strategic Deterrent to 
replace the Minuteman III will begin in fiscal year 2011, we must 
continue sustainment efforts to ensure Minuteman III viability through 
2030.
    An important event for the ICBM force in 2010 was a temporary loss 
of the ability to monitor the status of 50 missiles at F.E. Warren Air 
Force Base, Wyoming. At no time was there any danger to the public or 
to the safety and security of the weapon system. The missiles are 
protected by multiple and redundant safety, security, and command and 
control features. The root cause of this communication interruption was 
identified, and the necessary technical and procedural changes to 
prevent future occurrences have ensued. In addition, the Air Force has 
completed a number of assessments including initiatives to address 
systemic issues with ICBM infrastructure and operating procedures as 
well as a report on the age and pedigree of the infrastructure and 
equipment associated with the ICBM system. Based on these assessments, 
it is clear that a significant portion of the existing infrastructure 
will eventually require modernization or complete replacement in the 
years ahead.
    The fiscal year 2012 budget request of $5.2 billion continues to 
invest in the future of nuclear deterrence. The Air Force is committed 
to sustaining the ICBM force through 2030 with investment including 
command and control, cryptographic improvements and ballistic missile 
fuze sustainment. Bomber modernization and sustainment efforts include 
the B-52 Combat Network Communications Technology program, the B-2 
Extremely High Frequency communications program and the Defensive 
Management Systems program. The Air Force removed early-to-need 
procurement funding in bomber extremely high frequency communications 
and the ground element of the Minimum Essential Emergency 
Communications Network program due to program delays. The Air Force is 
committed to continuing to strengthen the nuclear enterprise through 
other programs such as the tail kit portion of the B61 nuclear weapon 
life extension program, the future long-range standoff weapon, and the 
Common Vertical Lift Support Platform. Beyond weapon system sustainment 
and modernization, the Air Force is focusing on human capital as we 
carefully balance requirements for our limited, intensively 
scrutinized, high-demand Airmen in the nuclear enterprise.
    The Air Force is prepared for a new verification regime and is 
planning for the elimination and conversion of launchers under the New 
Strategic Arms Reduction Treaty. We will work with the OSD and U.S. 
Strategic Command to identify and assess options for future force 
structure adjustments consistent with the Treaty provisions.

                        GLOBAL PRECISION ATTACK

    Many of our global precision attack forces are meeting the current 
requirements of ongoing contingency operations by performing precision 
strike and ISR support roles. However, the proliferation of anti-access 
and area-denial capabilities will challenge the ability of current 
fourth-generation fighters and legacy bombers to penetrate contested 
airspace in the longer term.
    The Air Force used a balanced approach across the global precision 
attack portfolio in fiscal year 2011, prioritizing investment in fifth-
generation aircraft while sustaining legacy platforms as a bridge to 
the F-35, Joint Strike Fighter. We continue to modernize our bomber 
fleet to sustain our capability and capacity as we invest in a Long-
Range Strike Family of Systems.
    The fiscal year 2012 budget request for this Core Function is $16 
billion. Investments in global precision attack will fund modernization 
of legacy fighters and the B-1B, development and procurement of the F-
35A, preferred munitions, and simulators for Tactical Air Control 
System training. The fiscal year 2012 budget request adds $15 million 
to begin design and development of structural and capability 
modifications for the F-16 Block 40/42/50/52 fleet. The SLEP 
initiatives for the F-16 airframe are scalable and responsive to the 
Air Force's total fighter requirements. The Air Force is also studying 
F-16 modernization efforts, to include a new AESA radar, center 
displays, electronic warfare defensive suite, and an improved data-link 
in anticipation of F-35A delivery delays.
    The multi-role F-35A is the centerpiece of the Air Force's future 
precision attack capability. In addition to complementing the F-22's 
world class air superiority capabilities, the F-35A is designed to 
penetrate air defenses and deliver a wide range of precision munitions. 
This modern, fifth-generation aircraft brings the added benefit of 
increased allied interoperability and cost-sharing across Services and 
partner nations. It will also serve to fulfill our commitment to NATO's 
dual-capable aircraft mission. The fiscal year 2012 budget includes 
$5.3 billion for continued development and procurement of 19 F-35A, 
Conventional Take-Off and Landing (CTOL), production aircraft.
    The F-35A program team achieved a number of accomplishments over 
the past year, including the first flight of the first mission systems 
aircraft, arrival of the first four F-35A test aircraft at Edwards Air 
Force Base, California, completion of F-35A static structural testing 5 
months ahead of schedule with no failures, roll out of the first Low 
Rate Initial Production (LRIP) F-35A, completion of 410 total F-35 test 
flights in 2010 of which 171 were F-35A flights, negotiation of the 
first fixed price type production contract (LRIP Lot 4--10 CTOL 
aircraft), and the signing of a Letter of Acceptance to procure the F-
35A by Israel.
    Also in 2010, the Air Force announced the preferred alternatives 
for F-35A operational and training bases. Those bases are Hill Air 
Force Base, Utah, and Burlington Air Guard Station, Vermont for 
operational squadrons and Luke Air Force Base, Arizona for training.
    The program continues to experience challenges as it transitions 
from development to production despite the significant accomplishments. 
The Secretary of Defense announced a program restructure in February 
2010. The restructure resulted in increased funding for development and 
production in accordance with Joint Estimate Team II estimates, reduced 
procurement by 122 aircraft over the FYDP in the fiscal year 2011 PB, 
upgraded the Program Executive Office position from a 2-star to 3-star 
flag rank, extended development by 13 months, added an additional LRIP 
lot prior to entering full rate production, and reduced the ramp rate 
to less than 150 percent of the previous year's production. Program 
cost growth, including growth from the restructure, resulted in a 
critical Nunn-McCurdy breach in March 2010. The Under Secretary of 
Defense for Acquisition, Technology, and Logistics subsequently 
certified the program in accordance with the Nunn-McCurdy statute, 
allowing the F-35 program to continue.
    The DOD tasked the program office to perform a bottom-up review of 
the remaining development effort after the program Nunn-McCurdy 
certification. This Technical Baseline Review (TBR), completed in 
November 2010, became the basis for additional program restructuring 
within the fiscal year 2012 PB. The TBR informed the need for an 
additional $4.6 billion to complete the Joint development effort. To 
fund this new development effort, and recognizing a continued lagging 
performance in production, the DOD reduced procurement by 124 aircraft 
over the FYDP in the fiscal year 2012 PB, 57 of which were F-35As.
    The Air Force intends to accelerate the procurement of the F-15E 
AESA radar modernization program, funding 88 radars and electronic 
protect software upgrades across the FYDP to keep our legacy platforms 
viable well into the future. Other legacy fighter improvements in the 
fiscal year 2012 budget include the continuation of the A-10C wing 
replacement program.
    The fiscal year 2012 budget request includes funds to modernize the 
B-1B fleet, including the central integrated test system, fully 
integrated data link, and vertical situation display unit. To provide 
the funds to modernize the B-1B fleet, the fiscal year 2012 budget 
request also reduces B-1B force structure by six primary aircraft 
authorizations leaving 60 B-1Bs in our inventory. Investing in a new 
penetrating bomber is critical to maintaining our long-range strike 
capability in the face of increasing risk associated with anti-access 
and area-denied environments.
    To this end, the Secretary of Defense announced on January 6, 2011, 
that the Air Force will invest in a new long-range, penetrating, and 
nuclear-capable bomber capable of both manned and unmanned operations. 
A major focus of this program is to develop an affordable, long-range 
penetrating strike capability that delivers on schedule and in 
quantity. This aircraft will be designed and built using proven 
technologies, will leverage existing systems to provide sufficient 
capability, and allow growth to improve the system as technology 
matures and threats evolve. This program should start now to ensure 
that the new bomber can be ready before the current aging B-52 and B-1 
bomber fleets go out of service. The follow-on bomber represents a key 
component of a Joint portfolio of conventional deep-strike 
capabilities, an area that must be a high priority for future defense 
investment given the anti-access challenges our military faces. It is a 
central element in a Family of Systems that includes enabling 
electronic warfare, ISR, and communications capabilities, as well as 
new weapons.
    Anti-access and area-denial challenges have also caused us to 
pursue the Air-Sea Battle concept in partnership with the U.S. Navy and 
Marine Corps, so that together we can preserve and bolster our Nation's 
freedom of action in the air, maritime, space, and cyberspace domains. 
Once implemented, Air-Sea Battle will guide us to develop a more 
permanent and better-institutionalized relationship between Departments 
that will ultimately shape our Service organizations, inform our 
operational concepts, and guide our materiel acquisitions.
    This budget request also includes Developmental Test (DT)/
Operational Test (OT) and procurement of the Joint Air-to-Surface 
Stand-off Missile baseline and Extended Range programs. As Small 
Diameter Bomb (SDB)-1 production concludes in fiscal year 2011, the Air 
Force plans to transition to development and production of the SDB-II 
in fiscal year 2012. Additionally, the fiscal year 2012 budget request 
continues funding for integration of the Hard Target Void-Sensing Fuze 
onto the BLU-113 and BLU-109 weapons, and funds weapon DT/OT for the 
Massive Ordnance Penetrator.
    Fiscal year 2012 budget investments in global precision attack 
reflect the requirement to win today's fight while recognizing that 
proliferation of anti-access and area-denial capabilities will 
increasingly challenge America's ability to penetrate contested 
airspace. The Air Force continues to modernize the legacy fighter and 
bomber fleet to maintain sufficient capability and capacity as we 
transition to a fully operational F-35A fleet and field a modern Long-
Range Strike Family of Systems.

                            AIR SUPERIORITY

    Air superiority is crucial in modern warfare. It enables air, land 
and maritime operations in support of our Joint, Interagency and 
Coalition partners. For over five decades, Air Force investments, 
expertise and sacrifice in achieving air superiority have ensured that 
friendly ground forces operate without threat of attack from enemy 
aircraft. Airspace control remains vitally important in all operating 
environments to ensure the advantages of rapid mobility, ISR and 
precision strike are broadly available to the Combatant Commander. 
Ongoing air defense modernization efforts by global and regional 
competitors will challenge the Air Force's ability to attain the same 
degree of control in the future. The fiscal year 2012 budget request 
for air superiority is $9.2 billion.
    We plan to continue upgrading to a fifth-generation fleet with F-22 
modifications to provide fleet commonality and ensure the viability of 
our legacy weapons systems. We will also continue the development of 
preferred air-to-air munitions and defenses such as the AIM-9X, AIM-
120D and electronic warfare capabilities.
    We are currently modernizing our legacy fleet of F-15 fighter 
aircraft with AESA radars to ensure their viability well into the 
future. Other F-15C/D modernization programs underway include an 
advanced display core processor upgrade with vertical situation 
display, beyond line of sight radios, and Link-16 cryptographic 
upgrades. The fiscal year 2012 budget request continues funding for the 
F-15C/D AESA radar modernization program. The Air Force has recently 
restructured this program, procuring 90 radars across the FYDP and an 
additional eight radars in fiscal year 2017.
    The Air Force is also incrementally modernizing the F-22 Block 30/
35 aircraft and requests funding in the fiscal year 2012 budget for the 
F-22 Block 20/30/35 Common Configuration, Reliability and 
Maintainability Maturation Program and enhancement of the air-to-air 
and SEAD capabilities on F-22 Block 30/35 aircraft.
    Select electronic warfare enhancements continue in fiscal year 
2011, including EC-130H Compass Call fleet upgrades, and a flight deck 
and mission crew simulator to increase training capacity. The fiscal 
year 2012 budget request begins funding 13 electronic attack pod sets 
for MQ-9s and the conversion of a C-130 to EC-130H Compass Call 
aircraft, adding two mission aircraft authorizations across the FYDP. 
The fiscal year 2012 budget also funds concurrent production of 
Miniature Air-Launched Decoy (MALD)/MALD-Jammer (MALD-J) and 
development of MALD-J Increment II to improve the system's electronic 
warfare capabilities.
    The Air Force continues to enhance development, production, and 
integration of critical munitions for air superiority. The fiscal year 
2012 budget requests funds for the development and full-rate production 
of the AIM-9X Block 2; development, integration, and production of the 
AIM-120D; and development and integration of the AGM-88 HARM control 
section modification. The fiscal year 2012 budget also requests 
research and development funding for the ``Next Generation Missile,'' 
an air launched missile to replace both the AIM-120D and the AGM-88. 
This funding will provide for a competitive prototype demonstration and 
technical development preceding entrance into the Engineering and 
Manufacturing Development phase of the program.
    Other key enhancements in the fiscal year 2012 budget request 
include the development and fielding of new training range equipment 
and updates to threat systems to provide realistic combat training. 
Among these are the P5 Combat Training System and Joint Threat 
Emitters. Also, the fiscal year 2012 budget request provides 
procurement of F-16 Block 40/50 Full-Mission Simulators, affording 
high-fidelity simulation for use in Distributed Mission Operations. 
Enhanced opportunities to migrate aircrew training into high fidelity 
simulators will help realize efficiencies in the peacetime flying hour 
program, as well as support energy efficiency.
    The proposed fiscal year 2012 investments will sustain America's 
air superiority advantage and expand the multi-role capability of the 
Air Force's most advanced aircraft. Additionally, these investments 
continue the development and procurement of electronic warfare 
capabilities and preferred air-to-air munitions.

                         RAPID GLOBAL MOBILITY

    The Air Force continues to provide unparalleled airlift and air 
refueling capability to support our national defense. Mobility forces 
provide a vital deployment and sustainment capability for Joint and 
Coalition forces, globally delivering equipment, personnel, and 
materiel essential for missions ranging from major combat to 
humanitarian relief operations worldwide.
    The Air Force is accelerating the retirement of our oldest legacy 
airlifters, the C-5A and C-130E, in fiscal year 2011. Airlift capacity 
and capability will be maintained through continued recapitalization 
and modernization. The Air Force will take delivery of seven C-130Js, 
and continue to ensure world-wide airspace access through avionics 
modernization of C-130H2/3, KC-10 and the C-5. In 2010, the C-27J 
completed transition from a Joint to an Air Force-led program, and we 
continued C-27J procurement as an investment in overall fleet 
viability.
    The fiscal year 2012 budget request balances tanker and airlift 
requirements to ensure that we sustain the critical needs of the 
warfighter. This is accomplished by prioritizing recapitalization of 
the tanker aircraft while ensuring the continued viability of the 
legacy fleet. Tanker capability investments of $877 million are heavily 
weighted toward our top acquisition priority, the KC-X program. The Air 
Force submitted a Request for Proposal for a KC-X replacement tanker in 
February 2010, and is anticipating contract award in early 2011. While 
moving aggressively to recapitalize the tanker fleet, we also continue 
maintaining the health of legacy aircraft. The budget includes $147.4 
million in fiscal year 2012 for the airspace access requirement and 
sustainment of the KC-10 and KC-135 fleets.
    In conjunction with the continued procurement of C-130Js, the 
fiscal year 2012 budget continues to modernize C-130Hs through the 
Avionics Modernization Program, ensuring continued global airspace 
access. Similar efforts to modernize C-5 avionics remain on track and 
the C-5B/C Reliability Enhancement and Re-engine Program (RERP) has 
completed operational testing. In October 2010, OSD approved RERP for 
full rate production with the final C-5M ``Super Galaxy'' scheduled for 
delivery in the third quarter of fiscal year 2016. Additionally, in 
accordance with the results of the Mobility Capabilities and 
Requirements Study 2016, and subject to authorization by the Congress, 
we intend to retire some of the oldest, least capable C-5As and C 
130H1s. The C-17 Globemaster III remains the backbone of our Nation's 
strategic airlift fleet, and the Air Force takes delivery of 11 new C-
17s in fiscal year 2011 and eight in fiscal year 2012. These additions 
bring the total C-17 fleet to 221 aircraft. The Air Force will continue 
to modernize its mature C-17s to the production line standard by 
accelerating the Block 13-17 upgrade program, and retrofitting the 
aircraft with extended range fuel tanks and an improved on-board inert 
gas generating system.
    Efforts to increase direct support airlift continue, with plans to 
beddown 38 C-27Js in the Air National Guard. The Air Force continues 
Operational Support Aircraft/Very Important Person Special Airlift 
Mission modernization with the upgrade of VC-25 avionics, with 
completion in fiscal year 2018 enabling unrestricted global access for 
the Presidential aircraft.
    global integrated intelligence, surveillance and reconnaissance
    The Air Force continues to rapidly increase its ISR capability and 
capacity to support all military operations. Air Force ISR provides 
timely, fused, and actionable intelligence to the Joint force from 
forward-deployed locations and distributed processing centers around 
the globe.
    The exceptional operational value of Air Force ISR assets has led 
Joint force commanders in Iraq, Afghanistan and the Horn of Africa to 
continually increase their requests for support. To help meet this 
demand, the Air Force currently has more than 90 percent of all 
available ISR assets deployed. Over the last 2 years, the Air Force 
increased the number of remotely piloted aircraft (RPA) and completed 
deployment of 30 MC-12W Project Liberty aircraft to theater to 
complement remotely piloted capabilities. This is being accomplished as 
we transitioning MC-12W Liberty Project from OCO funding into the Air 
Force baseline budget beginning in fiscal year 2013. Additionally, the 
Air National Guard, already full partners in the RPA enterprise, has 
also deployed the RC-26B in support of operations in Iraq. Finally, 
both the Air Force and Air National Guard operate the RC-135 Rivet 
Joint and Senior Scout, respectively, in support of global signals 
intelligence taskings.
    In fiscal year 2011, we will increase the number of CAPs in theater 
to 50, maximize the MQ-9 production rate to 48 per year, complete the 
procurement of 11 RQ-4 Block 40, and will deliver five additional MC-
12W aircraft. We also will maintain our current Joint Surveillance 
Target Attack and Radar System-based Ground Moving Target Indicator 
(GMTI) capability as we complete an Analysis of Alternatives to 
determine the future of GMTI.
    Our fiscal year 2012 ISR budget request of $8.2 billion fully 
supports the Joint force emphasis on ISR capacity and allows the Air 
Force to sustain maximum MQ-9 production and achieve 65 RPA CAPs in 
theater by the end of fiscal year 2013. In intelligence production, we 
corrected an internal Operation and Maintenance shortfall within the 
Air Force Distributed Common Ground System to sustain intelligence 
analysis and dissemination. The budget request also continues support 
for the U-2 Dragon Lady manned aircraft through the end of fiscal year 
2015 to ensure a smooth high-altitude transition to the unmanned RQ-4 
Global Hawk. This extension enables a measured reduction of the U-2 
program as RQ-4 Block 30 aircraft become operational and ensures 
continued support to national leadership, Combatant Commanders and 
Joint warfighters.
    The fiscal year 2012 ISR budget also realigns resources within the 
RQ-4 program to correct a $979 million diminishing manufacturing 
sources disconnect across the FYDP. To optimize our support of the 
overall RQ-4 program, the Air Force decided to curtail production of 
the RQ-4 Block 40 at 11 aircraft. This decision allows the Air Force to 
fully support and sustain the required RQ-4 Block 40 capability already 
procured and concentrate on fielding effective Block 30 multiple 
intelligence platforms on time.

                           SPACE SUPERIORITY

    The DOD, civilian agencies and our Nation rely on space 
capabilities developed and operated by the Air Force. The fiscal year 
2012 space superiority budget request of $11.6 billion will enable the 
Air Force to field, upgrade and sustain vital space systems for the 
Joint warfighter. As part of the Joint force, we integrate and operate 
these capabilities to execute the space support, force enhancement, 
space control and force application missions; and, as launch agent for 
both the defense and intelligence sectors, provide reliable and timely 
space access for national security purposes.
    Space capabilities provide the United States and our allies' 
unprecedented national security advantages in national decisionmaking, 
military operations, and homeland security. The Air Force's budget 
priorities align closely with the goals and principles outlined in the 
National Space Policy (NSP) and support the DOD's National Security 
Space Strategy (NSSS) and the National Military Strategy with specific 
emphasis on building international partnerships to establish mutually 
beneficial space capabilities and developing a better understanding of 
the space domain. International agreements are being pursued to expand 
space-based communication capability through the procurement of a ninth 
Wideband Global SATCOM satellite (WGS-9), and to meet National Search 
and Rescue requirements by working to integrate the Canadian-provided 
Distress Alerting Satellite Systems as a secondary payload on GPS Block 
III Increment B & C satellites. Additionally, realizing the space 
domain is becoming increasingly congested, contested and competitive, 
we will continue efforts to establish a Space Situational Awareness 
(SSA) partnership with Australia by jointly employing and operating a 
space object detect and track radar in Australia. This system will 
provide better understanding of the current and future strategic space 
environment and establish a foundation for continuing nation-to-nation 
cooperation.
    In close cooperation with OSD and the Office of Management and 
Budget, the fiscal year 2012 Air Force budget request proposes a new 
acquisition strategy for buying military spacecraft, Evolutionary 
Acquisition for Space Efficiency (EASE). The current practice of 
procuring satellites one-at-a-time or on a just-in-time basis has 
inadvertently increased costs due to production line breaks, parts 
obsolescence, and inefficient use of labor. Numerous space experts and 
congressional committees have expressed concern with the inefficiency 
and disruption caused by the status quo approach to procuring 
satellites. EASE is an acquisition strategy that encompasses the 
following tenets: block buys of satellites, fixed price contracting, 
stable research and development investment, and a modified annual 
funding approach. We believe this approach will result in savings that 
can be reinvested in research and development that will further improve 
the performance and lower the cost of follow-on systems. Commitment to 
satellite production and reinvestment in technology development 
provides stability and predictability for a fragile space industrial 
base.
    The Air Force budget request reflects the use of EASE for 
acquisition of the next blocks of Advanced Extremely High Frequency 
(AEHF) protected communications satellites in fiscal year 2012 and 
Space Based Infrared System (SBIRS)-Geosynchronous missile warning 
satellites in fiscal year 2013. Once the EASE approach is proven, we 
will examine the application of this acquisition strategy to a wider 
portfolio of space programs. Relying on a combination of regular 
appropriations, advance appropriations, and multi-year procurement 
authority, the EASE proposal is consistent with the full funding 
principle and is a critical part of the Air Force's efficiency agenda. 
The Air Force recognizes the need to work with Congress to define and 
obtain the necessary legislative authorities to achieve our vision.
    Spacelift is a critical component of the national security space 
enterprise. Despite our having achieved a record 76 consecutive 
successful launches since 1999, spacelift is still a complex and costly 
undertaking. Three recent launch studies reached the same conclusion 
that immediate commitment to a fixed annual production rate for launch 
vehicles is imperative to sustain the industrial base and control 
costs. To ensure this commitment, the fiscal year 2012 budget 
submission requests an additional $3.5 billion across the FYDP to 
procure five DOD launches each year. In addition, the Air Force is 
working aggressively to reduce the cost of providing this critical 
launch capability. Additionally, the Air Force is collaborating with 
the NRO and NASA to explore synergistic solutions to maintain a healthy 
industrial base and meet government launch requirements.
    Our Combatant Commanders and national leadership rely on satellite 
communications for continuous secure communications around the world. 
In fiscal year 2010, we successfully launched the third Wideband Global 
SATCOM (WGS) satellite and first AEHF satellite. AEHF will provide 10 
times the throughput and greater than 5 times the data rate of the 
current MILSTAR II Satellite Communication System. To increase the 
effectiveness of our Joint warfighting operations, we are expanding 
communications capability with the launch of another WGS satellite in 
fiscal year 2012. Each WGS satellite delivers the equivalent capacity 
of the entire existing Defense Satellite Communications System 
constellation. WGS has become the keystone for international 
cooperation measures in space, with our Australian allies funding the 
sixth WGS satellite in return for a portion of the overall bandwidth. 
We requested $469 million in the fiscal year 2012 budget request to 
fully fund WGS to meet Combatant Commander's bandwidth requirements. 
These essential systems provide our forces the vital communications 
needed to remain effectively coordinated, synchronized, and responsive 
in global operations.
    For over 20 years, GPS has been the global standard for 
positioning, navigation and timing (PNT) and is used in everything from 
consumer automobiles, precision farming and smart phones, to enabling 
the Nation's most sophisticated weaponry and financial systems. In 
fiscal year 2011, we will continue to launch GPS Block IIF satellites 
to maintain the constellation as a global utility. The fiscal year 2012 
budget request includes $1.7 billion for PNT capability and 
incorporates initial funding of the next generation GPS III satellite 
production, development of the next-generation operational control 
segment and upgraded military user equipment.
    Our fiscal year 2012 budget request also includes $87 million for 
the Operationally Responsive Space program to pursue innovative 
capabilities that can be rapidly developed and fielded in months rather 
than years to respond to Combatant Commanders' immediate space 
requirements. In the critical areas of missile warning and SSA, we 
requested $1.2 billion for the SBIRS program, which will launch the 
first geosynchronous satellite in fiscal year 2011 to begin our 
transition to a highly effective space-based missile warning system, 
and $122.1 million for the Joint Space Operation Center Mission System. 
We will continue to improve SSA ground-based systems and space-based 
capabilities to ensure continued freedom to operate in the space 
domain. The Air Force also recognizes that space capabilities are 
essential to the nuclear enterprise for its operational readiness, 
providing key decisionmaking information through missile warning and 
nuclear event detection, along with essential communications. Weather 
and forecasting data is another important source of information for our 
forces in peacetime and in conflict. We requested $444.9 million for 
the Defense Weather Satellite System in fiscal year 2012. This system 
will replace the Defense Meteorological Satellite Program in the early 
morning orbit slot, ensuring continuity of detailed overhead weather 
imagery and sensing information. All elements of space capability must 
operate through the full spectrum of potential contingencies.
    While participating, last year, in the DOD's development of the 
national long-term space strategy as part of the Space Posture Review 
and Quadrennial Defense Review, the Air Force recognized a need to 
review our own internal space governance structure to better position 
us to properly execute the direction resulting from these reviews. 
During our review, the position of the Under Secretary of the Air Force 
was identified as the focal point for oversight of all Air Force space 
activities. In addition, space acquisition responsibilities were 
consolidated in the Office of the Assistant Secretary of the Air Force 
for Acquisition. At the DOD level, the Secretary of the Air Force was 
revalidated as the DOD Executive Agent (EA) for Space. The EA is 
charged with the integration and assessment of the DOD overall space 
program, the conduct and oversight of long-term space planning and 
architecture development, and the facilitation of increased cooperation 
with the intelligence community. The EA also chairs the newly 
established Defense Space Council with representatives from across the 
DOD, and was directed to establish a jointly manned space office to 
restructure and replace the current National Security Space Office. 
This organization will not only better position the DOD to coordinate 
implementation of space policy and strategy, it will also provide the 
framework for the DOD's support for development of new national 
security space capabilities. Furthermore, the Secretary of the Air 
Force, in his role as the EA for Space is fully engaged with the DOD in 
the implementation of the recent NSP and NSSS.

                         CYBERSPACE SUPERIORITY

    The Air Force fiscal year 2012 budget request includes $4.6 billion 
to sustain and maintain our critical cyberspace capabilities and to 
enable Air Force expeditionary and Conus-based operations in support of 
Joint force commanders. The Air Force contributes to the Joint force by 
developing, integrating, and operating cyberspace capabilities in three 
mission areas: support, defense, and offense.
    Cyberspace superiority enables precise force application in all 
domains, generates effects across the full spectrum of operations, and 
preserves an agile and resilient cyberspace infrastructure for assured 
mission execution.
    Access to cyberspace is increasingly critical to meet Joint and 
allied requirements for freedom of maneuver in all domains. Air Force 
networks face a continuous barrage of assaults from State-sponsored 
actors, terror networks, international criminal organizations, 
individual hackers, and all level of threats in between. We are 
expanding collaboration with Service, Joint, Interagency, academic, and 
international partners on several cyber initiatives to safeguard our 
access to the cyberspace domain. To this end, we are operationalizing 
our approach to cyberspace with emphasis in this budget request on 
protecting the Air Force infrastructure, developing expertise to meet 
mission needs, and accelerating our acquisition processes.
    The 24th Air Force, the Air Force component of U.S. Cyber Command, 
achieved FOC on October 1, 2010, and the Air Force will expand the 
cyber rapid acquisition process to cope with constantly evolving 
technologies. The Air Force is also aligning education and training 
programs with our operational approach to cyberspace to properly 
develop our cyberspace professionals. In December 2010, we graduated 
our first cadre of cyberspace operators. Additionally, efforts to 
enhance the cyber-related investigative and forensic capabilities 
resident in the Air Force are forging a solid foundation for Service 
and Joint cooperation. For example, Air Force Space Command 
transitioned the Defense Cyber Crime Center back to the Air Force 
Office of Special Investigations to help strengthen the ties.
    The Air Force has strengthened its efforts in the support mission 
area by continuing work on the Single Air Force Network migration, 
which increases situational awareness of Air Force networks while 
securely improving information sharing and transport capabilities. 
Examples of this support are reflected in several investments in this 
budget. The Air Force continues to support its capability for live, 
virtual, and constructive simulation and training. Based on the Fort 
Hood follow-on review, enhancements were made to the Installation 
Emergency Management system to ensure a standardized, robust emergency 
notification system.
    For the defense mission area, the Air Force invested in additional 
network defenders to increase protection of information vital to Joint 
force operations. The Air Force continues to invest in network defense 
tools and other advanced technologies to monitor and secure classified 
and unclassified networks.
    In the offensive mission area, the Air Force seeks to field 
appropriate and sanctioned capabilities supporting assigned missions. 
The Air Force established formal training programs for both initial and 
mission qualification to provide trained forces to U.S. Cyber Command 
when tasked. Additionally, as the lead support agency to U.S. Cyber 
Command, the Air Force is responsible for the construction and 
installed infrastructure for the new U.S. Cyber Command Integrated 
Cyber Center at Fort Meade, Maryland.

                          COMMAND AND CONTROL

    Command and Control (C\2\) of our forces has never been more vital 
or more difficult than in the 21st century. Supporting the National 
Security Strategy requires commanders to integrate operations in 
multiple theaters, at multiple levels, and across the full range of 
military activity. Secure strategic and nuclear C\2\ remains an Air 
Force priority. The Air Force must sustain, modify, and enhance current 
command and control systems, and develop deployable, scalable and 
modular systems that are interoperable with Joint, Interagency and 
Coalition partners.
    In fiscal year 2011, we will improve assured communication links 
for U.S. Strategic Command's Distributed Command and Control Node and 
U.S. Northern Command's National Capital Region-Integrated Air Defense 
System. The Air Force has also done the following: expanded the 
training pipelines for Joint Terminal Attack Controllers (JTACs); began 
fielding advanced video downlinks, and airborne radio and datalink 
gateways to improve the connectivity of air support operations centers 
and JTACs; and modernized the 1970s-era technology of the E-3 airborne 
C\2\ node with the Block 40/45 program. In addition, the Air Force 
created pipeline training in support of the warfighting elements of the 
Commander, Air Force Forces theater staff.
    In fiscal year 2012, the Air Force requests $6.3 billion for full 
spectrum C\2\ sustainment, replacement, and development efforts. Of 
note, $19.1 million is requested to bolster the Air and Space 
Operations Center's (AOC) C\2\ capability and interoperability with 
programmed Joint systems to execute the Integrated Air and Missile 
Defense mission. Secure and reliable strategic level communications are 
improved with a $53.2 million request for modernization to Senior 
Leader Command and Control Communication Systems for senior leader 
support aircraft and the E-4 National Airborne Operations Center. 
Support to Combatant Commanders is also enhanced with almost $60 
million in fiscal year 2012 for improved airborne and mobile C\2\ 
systems. The Air Force maintained our commitment to the Joint 
development of the Three-Dimensional Expeditionary Long-Range Radar. 
Three-Dimensional Expeditionary Long-Range Radar will be the future 
long-range, mobile ground-based sensor for detecting, identifying, 
tracking, and reporting aircraft and missiles in defended airspace. 
Additionally, the United States secured a cooperative development 
position in the NATO Airborne Warning and Control System avionics and 
navigation modernization program.

                           SPECIAL OPERATIONS

    Geographic Combatant Commanders and U.S. Special Operations Command 
rely heavily on Air Force Special Operations (AFSOC) capabilities to 
support missions worldwide. As the DOD continues to develop 
capabilities effective against irregular and hybrid threats, increased 
Air Force Special Operations close air support, foreign internal 
defense and ISR capabilities will be required.
    In fiscal year 2011, the Air Force will continue procurement of 
five CV-22s and MC-130Js for the recapitalization of AFSOC's MC-130E/P 
and AC-130H aircraft. The fiscal year 2012 budget request includes an 
investment of $503.7 million toward recapitalization of AFSOC's MC-
130H/W fleet, with an additional investment of $26 million across the 
FYDP to align MC-130J program funding with OSD cost estimates. 
Additional investments were made to enhance CV-22 mission capability 
with upgraded cockpit data recording and Communication Navigation 
System/Air Traffic Management modifications. Finally, a low-cost engine 
wiring modification allowed the Air Force to realize a $9.6 million 
efficiency and reduce MC-130J spare engine inventories.

                           PERSONNEL RECOVERY

    Personnel recovery (PR) remains a vital core function in support of 
every contingency operation. The increased utilization of military and 
civilian personnel in support of OCO has significantly increased the 
demand for Air Force rescue forces beyond the conventional combat 
search and rescue mission. Air Force PR forces are fully engaged in 
Afghanistan, Iraq and the Horn of Africa, accomplishing lifesaving 
medical and casualty evacuation missions, while also supporting 
domestic civil land and maritime search and rescue, humanitarian 
assistance/disaster relief (HA/DR) and mass casualty evacuation 
missions.
    In fiscal year 2011, the Air Force will continue to recapitalize 
HC-130N/P aircraft and procure H-60 Blackhawk helicopters under the 
operations loss replacement (OLR) program to restore the fleet to 112 
HH-60G aircraft. The fiscal year 2012 request funds four HH-60G OLR 
aircraft, and provides a $2 billion investment for procurement of 54 
HH-60 replacement aircraft across the FYDP. We will also accelerate the 
procurement of our HC-130J rescue/tanker aircraft by procuring three 
aircraft in fiscal year 2012 to replace the 1960s-era HC-130P fleet on 
a one-for-one basis, up to 37 aircraft. Finally, the fiscal year 2012 
budget funds $73 million for the Guardian Angel program which will 
standardize and modernize mission essential equipment for an additional 
five pararescue teams.

                         BUILDING PARTNERSHIPS

    Developing mutually beneficial partnerships with militaries around 
the world is vital for the Air Force. Successful partnerships ensure 
interoperability, integration and interdependence between Coalition 
forces while providing our partner nations the capability and capacity 
to resolve their own national security challenges. Today's engagements 
require Airmen to perform their duties effectively and achieve 
influence in culturally complex environments around the globe.
    The Air Force continues to emphasize extensive language skills and 
regional knowledge in its growing cadre of Regional Affairs 
Strategists. These personnel possess a regionally focused advanced 
academic degree and language proficiency. They work with partner 
nations as attaches and Security Cooperation Officers. Political-
Military Affairs Strategists and best-fit officers also fill positions 
requiring in-depth understanding of the interagency processes key to 
building partnerships. The Air Force has also increased the culture and 
language content of selected pre-deployment training courses and 
recently inaugurated a new language learning program--the Language 
Enabled Airman Program. This program provides an opportunity to create 
a cadre of language-capable Airmen who are deliberately developed for 
requirements, leverages the capability attained in foreign language 
accession programs, and provides a systemic opportunity for these 
Airmen to maintain these skills throughout their careers. Our fiscal 
year 2012 budget request includes funding to expand foreign language 
instruction for officer commissioning programs as well.
    The Air Force continues to engage our international partners across 
the spectrum of operations. The fielding of the F-35, Joint Strike 
Fighter, will further our partnerships with more established allies, 
while the three C-17s procured for the 12-nation Strategic Airlift 
Capability are fully operational and currently meeting the airlift 
requirements of our European allies. We are funding new initiatives 
which support longer term Building Partnerships Capacity (BPC) efforts. 
For instance, $65.7 million was budgeted toward the procurement of 15 
Light Mobility Aircraft (LiMA) to assist partner nations in building 
their airlift capability in fiscal year 2011. These aircraft are 
scheduled to be fielded and achieve initial operating capability (IOC) 
in the second quarter of fiscal year 2012. We are also requesting $159 
million in fiscal year 2012 to procure the first nine of 15 Light 
Attack/Armed Reconnaissance (LAAR) aircraft. These LAAR aircraft will 
be used to train a cadre of pilots who will subsequently export their 
BPC aviation skills to international partners who may operate the same 
or similar platforms. To ensure the proper capability is provided to 
build partner capacity by Contingency Response Forces, LiMA and LAAR 
personnel, we funded the formal establishment of an Air Advisor Academy 
in fiscal year 2011 to expand our current efforts that include training 
air advisors heading to Iraq and Afghanistan and training air advisors 
for engagements globally. English language proficiency is a 
prerequisite to nearly all of the education and training that the 
Services provide to our partner nations. To meet increasing partner 
demand for English language training, the fiscal year 2012 Air Force 
program expands the capacity at the Defense Language Institute English 
Language Center.

                          AGILE COMBAT SUPPORT

    Underpinning the work of all Air Force Core Functions are the 
capabilities included in agile combat support (ACS). ACS is the ability 
to create, protect, and sustain air and space forces across the full 
spectrum of military operations and spans a diverse set of Air Force 
functional capabilities. The fiscal year 2012 budget request of $33.8 
billion for ACS accounts for efforts affecting our entire Air Force--
from the development and training of our Airmen to regaining 
acquisition excellence.
    Airmen and Families.--The Air Force is proud of its commitment to 
supporting its Airmen and families. The nearly two decades of sustained 
combat operations has imposed extraordinary demands on them and 
underscores the need to remain focused on sustaining quality of life 
and supporting programs as a top priority. To help address the demands, 
in 2010 the Air Force executed the Year of the Air Force Family and 
highlighted support programs focused on three outcomes: Fostering a 
Strong Air Force Community; Strengthening an Airman's Sense of 
Belonging; and Improving Airman and Family Resiliency.
    The Year of the Air Force Family deepened leadership's 
understanding of current support services and capabilities and what 
needs to be done in the future to maintain and improve outcomes in the 
three primary focus areas.
    First, the Air Force will maintain an enduring emphasis on Airmen 
and families by actively engaging the entire Air Force Community: Total 
Force Airmen, Department of the Air Force civilians, single and married 
personnel, primary and extended family members, retirees, and on and 
off-base community partners. The Air Force will maintain an atmosphere 
that is supportive, team-oriented, and inclusive, but diverse enough to 
meet the current and emerging needs of the entire Air Force Community. 
Policy and process priorities have been translated into actions and 
tasks that will be accomplished over the next few years, perpetuating 
the Air Force's commitment to strengthening our ties to one another, 
improving our operational abilities and ensuring our Air Force 
Community is best positioned to meet future commitments and 
requirements.
    Second, we continue to strengthen our Air Force Community by 
expanding child care through different programs such as the Extended 
Duty Program, Home Community Care, Missile Care, and the new 
Supplemental Child Care initiative to provide flexibility in meeting 
child care needs. In fiscal year 2011, the Air Force will continue to 
demonstrate our commitment to military child education, funding full 
time School Liaison Officers (SLO) Air Force-wide. SLOs and our new Air 
Force Exceptional Family Member Program Coordinators will work in close 
collaboration to address educational and other assistance for families 
with special needs. The Air Force fiscal year 2012 budget request 
includes $4 million to assist with respite child care for military 
family members with special needs children.
    Third, the budget reflects a $4.4 million increase to our Air Force 
Mortuary Affairs program, supporting travel for family members from 
home of record to Dover Port Mortuary to receive and honor fallen loved 
ones. Increases also reflect our commitment to maintaining the Port 
Mortuary's Center for the Families of the Fallen, used as the reception 
facility and host site for visiting family members at Dover Air Force 
Base, Delaware.
    Airman dining facilities remain an important commitment of the Air 
Force as we plan to increase funding for dining facilities at basic 
military training and technical training bases by $14.9 million in 
fiscal year 2012. In fiscal year 2011, we launched the Food 
Transformation Initiative (FTI) to address Airmen's concerns with 
dining facility closings, lack of healthy food options, and 
insufficient hours of operation. FTI is designed to enhance food 
quality, variety and availability while maintaining home base and 
warfighting capabilities.
    The Air Force continues to expand our efforts to improve resiliency 
of Airmen and their families before, during, and after deployments and 
has significantly expanded capabilities to ensure support and 
reintegration of our Total Force. In continuing its efforts to improve 
the resiliency of Airmen and their families, the Air Force moved 
forward with several initiatives in 2010.
    We established a new Resiliency Division at the Air Force level to 
take the lead and develop an overarching Air Force Resiliency Roadmap. 
The Deployment Transition Center (DTC) was established at Ramstein Air 
Base, Germany on July 1, 2010. The DTC and Chaplain Corps Care for the 
Caregiver programs provide valuable decompression, reintegration and 
resiliency training for those exposed to significant danger and stress 
in combat zones. To support these efforts, the Air Force fiscal year 
2012 budget request includes $8 million for the Air Force Resiliency 
Program for research, curriculum development, materials and 
intervention training for the DTC. We will continue to develop our 
Airman Resiliency Program by identifying needs, researching best 
practices, partnering with internal and external organizations, and 
developing targeted and tiered training that is integrated into an 
Airman's career to allow a building block approach that leads to life-
long resiliency that benefits both Airmen and their families. We are 
also requesting an increase in the Chaplain Recruitment program by $1.5 
million in fiscal year 2012 to better provide for religious 
accommodation and support of Airmen. This includes chaplain-led 
MarriageCare Retreats, that help heal and save marriages, and 
deployment reintegration programs expanded to meet the needs of 
redeploying Airmen.
    The Air Force is highly committed to the Wounded Warrior Program 
that ensures access to medical and rehabilitation treatments for the 
ill and wounded. The Air Force Warrior and Survivor Care Division is 
dedicated to building a culture of understanding and concern for 
wounded, ill and injured Airmen. The Air Force has hired 33 Recovery 
Care Coordinators and a Program Manager to support 31 locations across 
the Air Force. Recovery Care Coordinators serve as the focal point for 
non-clinical case management, development of comprehensive recovery 
plans and creation of timelines for personal and career 
accomplishments. Additionally, the Air Force has implemented new 
personnel policies regarding retention, retraining, promotions, 
assignments and evaluation of Wounded Warriors. In fiscal year 2012, 
the Air Force is requesting $2.8 million for additional case workers 
and program managers to provide non-clinical case management services 
to meet the growing demands of the Wounded Warrior population.
    Healthcare Initiatives and Costs.--As key team members of the 
Federal and Military Health System (MHS), the Air Force Medical Service 
(AFMS) is seeking innovative solutions to deliver world class care 
while slowing the rising costs of healthcare. For example, the AFMS is 
taking the lead in building the largest patient centered medical home 
capability in the DOD over the next 12 months. This includes the Family 
Health Initiative, designed to improve continuity of care and healthier 
outcomes. Additional emphasis is being placed on delivering better care 
by streamlining our hospital surgical operations and improving the 
experience of care. Current efforts have demonstrated recapture of 
services in key market areas with the overall results of reduced cost, 
increased currency of our surgeons, and improved patient satisfaction. 
In addition, the AFMS is transitioning from healthcare delivery to 
delivering health. Through patient-centered care, improved teamwork 
with our patients, and leveraging partnerships with DOD, VA and 
civilian institutions, Air Force medicine is shaping the future of 
healthcare.
    Our strategy to control DOD healthcare costs is the right approach 
to manage the benefit while improving quality and satisfaction. 
Adjustments to the benefit such as raising TRICARE enrollment fees for 
working retirees, phasing out enrollment for some high-cost health 
plans, paying community hospital Medicare rates, and incentivizing the 
use of the most effective outlets for prescriptions is prudent. There 
will be limited impact (prescription only) on active duty family 
members. By implementing these important measures, we will be able to 
positively address the rising costs of healthcare and improve the 
health of our population.
    Suicides.--Air Force suicide rates have been on the rise since 
2007, although primary risk factors for suicide among Airmen remain the 
same. The most commonly identified stressors and risk factors have 
remained the same over the last 10 years: relationships, financial 
problems and legal problems. Although deployments can stress Airmen and 
their families, deployment does not seem to be an individual risk 
factor for Airmen--many Airmen who have committed suicide have never 
deployed. The Air Force is providing additional support to our most at-
risk Airmen by providing additional frontline supervisor suicide 
prevention training to all supervisors in career fields with elevated 
suicide rates. In addition, mental health providers are based in 
primary care clinics across the Air Force to counsel patients who may 
not otherwise seek care in a mental health clinic because of the 
perceived stigma. The Air Force has significantly expanded counseling 
services in addition to those available through the chaplains or the 
mental health clinic.
    Other helpful programs that provide non-medical counseling include 
Military Family Life Consultants, which can see individuals or couples, 
and Military OneSource, which provides sessions for active duty for up 
to 12 off-base sessions.
    Fort Hood.--In the wake of the Fort Hood shooting, the Secretary of 
Defense directed the Air Force to conduct a follow-on review to 
identify ways to better protect Airmen and families. Our review yielded 
118 findings and 151 recommendations. The key revelation of the study 
is that we must do a better job of preventing and responding to 
violence. Specifically, we must improve our ability to identify 
indicators of potential violence and share that information with those 
who are best positioned to prevent a violent outcome. This will require 
improved understanding, education, processes and training, as well as 
more integrated processes at both the installation and interagency 
levels. To undertake these efforts, the fiscal year 2012 budget request 
includes $37 million across the FYDP. We anticipate that our resource 
requirements will increase as we refine the implementation of our 
recommendations. We are confident that the resources Congress provides, 
coupled with our sustained effort, will help the Air Force reduce the 
likelihood of tragedies like Fort Hood and position us to respond more 
effectively should prevention fail.
    Information Protection.--The Air Force will enhance its 
capabilities to assess and mitigate risks to national security 
information across the enterprise. It will advance efforts to identify 
risks that reduce the surety of research, development, and acquisition 
and operations or enable potential opponents to illicitly increase 
their technological capabilities. These efforts will enable commanders 
to effectively execute intelligence-led, risk based protection across 
the Air Force.
    Science and Technology.--Air Force warfighting capabilities have a 
proud heritage of being born from the very best science and technology 
(S&T) our Nation can produce. The creation of the Air Force is closely 
intertwined with the development of advances in S&T. In 2010, the Air 
Force presented the ``Technology Horizons Study'' to serve as a roadmap 
for guiding Air Force science and technology investments during the 
next 20 years. Despite current fiscal constraints, the Air Force is 
increasing its investment in basic research by $18 million and in 
Advanced Technology Development by $76 million, while continuing fiscal 
year 2011-level investment in Applied Research.
    Acquisition Excellence.--The Air Force continues to strive for 
acquisition excellence by increasing the rigor and transparency of its 
processes and by stabilizing requirements and funding. As one of our 
top five Air Force priorities, we have taken a multi-faceted approach 
to recapturing acquisition excellence to include:
  --Rebuilding the acquisition workforce;
  --Delivering a fully implemented Acquisition Improvement Plan (AIP) 
        to guide and shape current and future efforts;
  --Creating a foundation for a robust Continuous Process Improvement 
        (CPI) function within acquisition; and
  --Implementing approximately 75 efficiency initiatives that range in 
        scope and impact throughout the acquisition enterprise.
    Continued improvements support moving resources from ``tail to 
tooth'' to fully support the Air Force's direct mission activities. 
Efficiency savings in overhead, support and other less mission-
essential areas will increase funding available for our critical 
mission functions. The Air Force, as a good steward of taxpayer 
resources, is committed to delivering products and services that 
perform as promised--on time, within budget, and in compliance with all 
laws, policies and regulations.
    An example of the successful implementation of recapturing 
acquisition excellence is the consolidation of fiscal year 2008 OCO, 
fiscal year 2009 OCO and base-year funding, fiscal year 2010 base-year 
funding, and Foreign Military Sales C-130J contracts into one 
negotiation. By taking advantage of economies of scale, the Air Force 
realized a savings and was able to procure two additional C-130Js. This 
effort reduced the number of aircraft the Air Force needs to buy in the 
out-years to meet its requirement.
    Installations and Operational Energy.--The Air Force views energy 
efficiency as a mission enabler that can increase combat effectiveness, 
expand reach and minimize operational risks. The Air Force is 
integrating energy considerations across the Air Force enterprise with 
a three-pronged approach: reduce demand, increase supply, and culture 
change. We can identify efficiencies that increase our capabilities and 
reduce our costs, while also increasing and diversifying our energy 
supply to improve our energy security and our ability to meet our 
critical operational requirements. Finally, by creating a culture that 
makes energy a consideration in everything we do, and that values 
energy as a limited mission-critical resource, we ensure enduring and 
far-reaching utilization improvements and savings.
    As part of our institutional effort to utilize energy to maximize 
mission effectiveness, the Air Force is requesting over $550 million 
for energy initiatives in fiscal year 2012. Initiatives include 
investments in reliable alternative energy resources, enhancing energy 
efficiency, and reducing environmental impacts and life cycle costs. In 
addition, the Air Force is continuing to take steps to reduce mission 
risk by increasing critical infrastructure resiliency to ensure 
reliable energy availability at Air Force installations.
    We have reduced energy use at facilities by nearly 15 percent since 
2003, and expect to achieve nearly a 30 percent reduction by 2015. In 
addition, we have instituted a number of fuel saving initiatives and 
reduced the amount of fuel our aircraft have consumed by over 46 
million gallons since 2006, despite increased operational requirements 
associated with ongoing operations. The Air Force is continuing to 
explore opportunities to reduce demand for aviation fuel. For example, 
the 618th Tanker Airlift Control Center is optimizing flying routes by 
working clearances to allow flights to transit through previously 
denied airspace. We can save the Air Force an estimated 2.6 million 
gallons of fuel per year by optimizing our flight routes and 
clearances. Some of the initiatives we will pursue to achieve fuel 
efficiencies are:
  --Providing aircrews in-flight guidance on the optimum airspeed and 
        altitude based on current flight conditions;
  --Expanding the use of simulators to conduct training;
  --Implementing a program, already an industry standard, that cleans 
        components allowing the engine to run cooler saving fuel and 
        prolonging engine life; and
  --Refining fuel and cargo policies to reduce carrying costs and 
        potentially the number of missions required to support the 
        Combatant Commanders.
    We are also increasing the energy supplies we can use to meet our 
mission. We have certified over 99 percent of our aircraft fleet for 
unrestricted operational use of a synthetic aviation fuel blend. This 
fuel can be produced domestically, and we are looking to industry to 
help us meet our needs. We are in the process of certifying our fleet 
to use biofuel blends as well. These alternatives provide our fleet 
with additional flexibility and enable our freedom of action. The Air 
Force is also looking at alternative sources for energy at our 
facilities. In the upcoming years, we will quadruple on-base solar 
energy production and dramatically increase the amount of wind energy 
consumed. These clean sources of energy will serve to enhance our 
energy security.
    The Air Force is working cooperatively with the Army and the 
Marines to reduce fuel requirements at forward operating bases by 
decreasing energy demand, utilizing efficient power distribution and 
increasing alternative supplies. These bases require generators, 
typically running on diesel, that require fuel to be brought in by 
convoy. We are working to improve the energy efficiency of our Basic 
Expeditionary Airfield Resources assets, commonly called BEAR, in the 
expeditionary environment. One of the Air Force's efforts is focused on 
reducing the energy demand for expeditionary shelters by 50 percent, 
while using photovoltaic tent flys to generate a minimum of three 
kilowatts per shelter. We are also working with industry to design a 
portable, expandable microgrid for our remote airfields. The system 
will integrate solar, wind and other renewable sources of energy into 
the existing BEAR power grid, reducing the system's reliance on 
traditional, carbon-based fuel by as much as 25 percent. It will be 
able to withstand the harsh conditions in which our military operates. 
More importantly, it will help reduce the inherent wartime dangers that 
come with delivering the fuel by convoy.
    We have made significant and positive progress in reducing our 
consumption, increasing the energy available to the operational Air 
Force and changing the culture within the Air Force to ensure energy is 
a consideration in everything we do. Energy availability and security 
impact all Air Force missions, operations and organizations. The Air 
Force will increase warfighting capabilities, and efficiency, and help 
the Nation reduce its dependence on imported oil by continuing to 
ensure energy availability and re-engineering our business processes to 
become more efficient.
    Reducing Excess Physical Plant and Infrastructure.--The fiscal year 
2012 budget request includes a $300 million demolition and $100 million 
consolidation investment to reduce long-term fixed costs through the 
consolidation and demolition of unneeded facilities and infrastructure. 
In line with the June 10, 2010 Presidential memorandum, the Air Force 
intends to reduce energy use and curtail unnecessary sustainment 
activities by eliminating physical plant that is no longer needed.
    Military Construction.--The Air Force's fiscal year 2012 $1.4 
billion Milcon request provides funding for our most critical 
requirements including new construction aligned with weapon system 
deliveries and the Combatant Command priorities. This includes projects 
supporting beddowns and upgrades for F-22, F-35, HC-130J, EC-130H, RPA 
and B-52, as well as projects supporting our mission support facilities 
most in need of recapitalization. The Air Force Milcon program supports 
the U.S. Strategic Command Headquarters replacement facility in three 
increments beginning in fiscal year 2012, the new U.S. Cyber Command 
Headquarters in fiscal year 2013, an additional phase of the Blatchford 
Preston Dormitory Complex at Al Udeid, Qatar, and an air freight 
terminal on Guam.
    Additionally, the budget request sustains our effort to provide 
quality housing for Airmen and funds $254 million in improvements to 
meet DOD performance standards to provide 90 percent of our permanent 
party dorm rooms in good or fair (Q-1 or Q-2) condition. The Air Force 
investment strategy is to fund improvements in all Q-3 and Q-4 dorms, 
referred to as Tier 1 dorms in the 2008 Dorm Master Plan, by 2017.
    The Air Force recognizes the critical role Milcon holds in 
successful mission execution and is taking action to increase Milcon 
funding in the near years of the FYDP--the Air Force proposes to 
increase Milcon in fiscal year 2012, fiscal year 2013, and fiscal year 
2014 by a combined $1.8 billion over the fiscal year 2011 PB 
submission.
    Finally, in an effort to ensure the most critical mission and 
infrastructure projects are funded first, the Air Force used asset 
management and efficient facility operations processes to evaluate 
Milcon requirements. In essence, the Air Force is considering how these 
projects and programs help reduce our out-year investment needs as part 
of our overall cost control strategy.
    Logistics.--WSS is a vital element in sustaining Air Force 
readiness. The Air Force faced a $7 billion increase in WSS 
requirements across the FYDP at the beginning of the fiscal year 2012 
budget cycle, largely due to increasing numbers of weapon systems, such 
as C-17, F-22 and MQ-1/9 aircraft that use contractor logistics 
support. We recognized that we cannot sustain that kind of growth in 
requirements, so we implemented a WSS end-to-end assessment to identify 
efficiencies with respect to supply chain management, centralized asset 
management, and depot performance.
    We were able to reduce WSS investment from $7 billion to $4 billion 
through efficiencies in depot and supply chain processes identified in 
the assessment. While we will still experience growth, this $3 billion 
FYDP offset represents important savings that the Air Force applied 
elsewhere. Prior to the WSS end-to-end assessment, the sustainment 
funds requested in fiscal year 2012 would have supported 80 percent of 
the WSS requirement. Following the assessment, and the resulting 
reduction in growth, the same amount of funds requested will actually 
support 84 percent of the fiscal year 2012 WSS requirement.
    While the peacetime flying hour program is fully funded, 
reprogramming may be necessary to cover increased fuel costs due to the 
volatility of fuel prices. Over the longer term, enactment of the DOD's 
legislative proposal for the Refined Petroleum Products Marginal 
Expense Transfer Account would reduce disruptions to operations and 
investment programs by providing the flexibility to meet fuel price 
fluctuations.
    The Air Force is successfully fielding a pilot of the first 
increment of the Expeditionary Combat Support System (ECSS). We will 
conduct an independent cost estimate as part of, and in conjunction 
with, the ongoing Critical Change Review to assess the cost 
effectiveness of proceeding with additional ECSS releases that support 
retail and wholesale supply and depot maintenance activities. The Air 
Force will continue to maintain legacy logistics support systems while 
determining the best course of action for developing information 
technology tools to enhance the visibility and management of supplies 
and equipment.
    Financial Improvements.--The Chief Financial Officers' Act provides 
direction for achieving a clean audit through leadership commitment, 
modernized government financial management systems, and strengthened 
financial reporting. Sound financial management helps to ensure the 
maximum combat capability for each taxpayer dollar. The Air Force is 
committed to achieving the legislative requirement for a clean audit by 
2017. While 2017 is a challenging deadline for a military organization 
as large and diverse as the Air Force, the strong engagement of Air 
Force leadership, additional financial resources provided in recent 
years, and focus on fielding effective financial systems will help 
achieve it. We are focusing our efforts on the information most 
relevant to decision makers, and the Air Force Financial Improvement 
Plan is closely aligned with the DOD strategy to achieve a clean audit.
    Strategic Basing.--In 2009, the Air Force established a 
standardized, repeatable, and transparent Strategic Basing Process. 
Guided by the Strategic Basing Executive Steering Group and coordinated 
through the lead Major Commands, over 115 basing actions have been 
accomplished ensuring that mission and Combatant Commander requirements 
are linked to installation attributes that identify those locations 
that are best suited to support any given mission. This process 
supports IOC, aircraft delivery, personnel movement, and other mission 
requirements. Recent improvements in the process have formalized 
actions to expedite simple, specialized or particularly time-sensitive 
basing initiatives, to support more timely decisions.
    During 2011, the Air Force will utilize the Strategic Basing 
Process to support basing decisions for the MQ-1/9, LiMA, LAAR, and KC-
X.
    In developing our fiscal year 2012 budget request, we looked at 
ways to maximize combat capability out of each taxpayer dollar by 
identifying waste, implementing efficiencies, pursuing continuous 
process improvement initiatives and making smart investments. 
Recognizing the need to shift resources from ``tail to tooth,'' the Air 
Force identified efficiencies across the enterprise that will enable 
investments in enhancements to increase our warfighting capabilities. 
This includes the continued pursuit of cost-effective systems that 
leverage existing capabilities and maximize interoperability and 
integration of legacy and future systems.
    Our ability to project Global Vigilance, Reach, and Power is 
constrained by the increasing costs to design and build platforms in a 
particularly challenging budget environment. Our fiscal year 2012 
budget request reflects the difficult choices that will allow the Air 
Force to provide the necessary capability, capacity, and versatility 
required to prevail in today's wars, prevent and deter conflict, 
prepare to defeat adversaries and succeed across the range of potential 
military operations--all the while preserving and enhancing the all-
volunteer force.
    We are confident in our Airmen. They are the best in the world, and 
we rely on them to meet any challenge, overcome any obstacle and defeat 
any enemy as long as they are given adequate resources. We are 
committed to excellence and we will deliver with your help. We ask that 
you support the Air Force budget request of $119 billion for fiscal 
year 2012.

    Chairman Inouye. And now, General Schwartz.

STATEMENT OF GENERAL NORTON A. SCHWARTZ, CHIEF OF STAFF
    General Schwartz. Mr. Chairman, Senator Cochran, and 
members of the subcommittee, I am privileged to be here today 
with Secretary Donley, representing the men and women of our 
United States Air Force.
    Our airmen continue to inspire us with their dedication and 
their service, quietly and proudly serving alongside their 
Army, Navy, Marine, and Coast Guard teammates. Every day airmen 
act on behalf of the American people as stewards of the 
Nation's trust and defenders of her security.

                    FULL SPECTRUM OF AIR OPERATIONS

    This budget request, fully appreciating the Nation's 
extraordinary fiscal conditions, supports our airmen and our 
continuing efforts to structure the force for maximum 
versatility and the full spectrum of operations. This includes 
humanitarian relief operations in Japan, where several hundred 
airmen and Air Force civilians have deployed, with more on the 
way, to assist 13,000 Air Force personnel already stationed in 
Japan. Along with their joint and interagency teammates, they 
are all working hard to provide some measure of comfort to the 
victims of multiple concurrent disasters.
    In the immediate aftermath, airmen at Yokota Air Base 
received a dozen or so commercial aircraft and more than 500 
passengers that were bound for Narita International Airport in 
an ongoing support to Operation Tomodachi, they continue to 
receive more than triple the average amount of aircraft on 
their flight line.
    Members of the 33d Rescue Squadron from Kadena Air Base in 
Okinawa continue to partner with their Japanese self-defense 
force counterparts to conduct search and rescue operations, 
while teammates from the 352d Special Operations Group, also 
from Kadena, work to open a couple of hard hit airfields, 
including Sendai and Matsushima.
    For the world--the wide angle view, RQ-4 Global Hawks and 
the U-2 aircraft continue to gather imagery of the devastation, 
while WC-135s operate in international airspace to collect 
atmospheric data to support ecological awareness efforts.
    Airmen who provide inter- and intra-theater airlift 
capability have transported more than 900 passengers, including 
aeromedical patients, and delivered more than 5 million pounds 
of cargo via C-17s, C-130s, and other airborne assets, while on 
the ground, other airmen have contributed to transport and 
deliveries of critical supplies and equipment.
    Meanwhile, in North Africa, B-2 bombers from Whiteman Air 
Force Base in Missouri led U.S. strikes on a variety of 
strategic targets, for example, military command and control 
sites as well as air defense systems, that posed a direct 
threat to Libya civilian population and partner nation forces.
    Other Air Force assets, F-15Es and F-16 CJs, along with a 
multitude of AWACs, tankers, and other support aircraft, joined 
coalition aircraft from Britain, France, and others to help 
gain control of the airspace, establish a no fly zone over 
Libyan opposition forces, and protect Libyan citizens from any 
further harm from Moammar Gadhafi's regime. The Joint Task 
Force Odyssey Dawn leaders closely monitor the situation and 
ensure close coordination and transition to our NATO allies. 
Airmen stand ready to continue supporting the enforcement of 
U.N. Security Council Resolution 1973 by providing unique air 
and space power for United States, allied, and coalition 
forces.

        OPERATING UNDER FISCAL YEAR 2011 CONTINUING RESOLUTIONS

    As you can see, airmen and their joint teammates are doing 
tremendous work on behalf of the American people, and we would 
be remiss to allow current budgetary pressures to adversely 
affect their performance and their safety. I, therefore, echo 
Secretary Donley's concerns about operating under a continuing 
resolution. Without a fiscal year 2011 Defense appropriations 
bill, we will have to further reduce flying hours, cancel 
training and exercise opportunities, delay or cancel weapon 
system sustainment and depot maintenance activities, and 
disrupt a multitude of other day-to-day activities.
    Current reductions to the President's budget request not 
only create inefficiencies that basically reverse the 
efficiency measures that Secretary Gates has directed, they 
adversely affect military readiness and performance as well.
    We appreciate your efforts to pass a Defense appropriations 
bill to provide for the critical needs for our uniformed men 
and women.
    Airmen are committed to the task of leveraging the air and 
space power with all of its inherent versatility, and 
presenting to the President and the national leadership a range 
of strategic options to meet the following national military 
objectives: countering violent extremism, deferring and 
defeating aggression, strengthening international and regional 
security, and shaping the future force.

                      COUNTERING VIOLENT EXTREMISM

    To counter violent extremism, airmen continue to make vital 
contributions to our Nation's strategic objective of 
disrupting, dismantling, and defeating Al Qaeda and its 
affiliates, and inhibiting their return to former sanctuaries. 
More than 42,000 airmen--approximately 6 percent of our force--
are forward deployed worldwide. Of this group, nearly 30,000 
are on a continually rotating basis to directly contribute to 
operations in the U.S. Central Command area of responsibility, 
including nearly 11,000 airmen in Afghanistan providing close 
air support, air mobility, personnel rescue, air medical 
evacuation, leadership of provincial reconstruction teams, and 
training to develop our partner air force.
    In direct support of combatant and command requirements, we 
have 57,000 total force airmen--or about 11 percent of the 
force--who were forward stationed overseas, as well as 
approximately 218,000 airmen, or some 43 percent of the Air 
Force force--who stand nuclear alert, operate our satellites, 
process intelligence, surveillance, and reconnaissance data, 
and do much, much more.
    To deter and to defeat aggression, we maintain vigilance 
across the entire spectrum of conflict, from our recent 
experience in counter insurgency operations, to more 
traditional roles of air mobility and precision strike.
    At the upper end of the continuum, we continue to provide 
two of the Nation's three arms of nuclear deterrence with 
steadfast excellence, precision, and reliability.
    And across the remainder of the operational spectrum, we 
will maintain robust conventional deterrence by building on our 
comprehensive portfolio of air, space, and cyber capabilities, 
with multirole systems that can flex to fulfill different 
warfighting requirements.

           STRENGTHENING INTERNATIONAL AND REGIONAL SECURITY

    To strengthen international and regional security, we will 
translate air power's inherent versatility and ability to 
traverse vast distances with unmatched speed, ensuring U.S. 
forces are globally available, yet tailored to be regionally 
focused. And we will continue to coordinate efforts to build 
international partner capabilities, which can help prevent 
lower intensity problems from escalating into full-scale 
crises. For instance, nearly 300 airmen are deployed as members 
of the Iraq Training and Advisory Mission Air Force, supporting 
the development of counterpart capabilities in some 425 
specialties. Similarly, airmen supporting combined Air Power 
Transition Force not only advise and train Afghanistan airmen, 
they help to set the conditions for a viable and self-
sustaining Afghan national army/air force to meet a range of 
security requirements.
    Finally, to shape the future force we will work hard to 
ensure readiness, training, and equipage because mission 
success relies on resilient airmen as much, if not more, than 
on weapons systems.

                  CARING FOR AIRMEN AND THEIR FAMILIES

    Airmen are the lifeblood of our Air Force, to whom we owe 
our fullest commitment--particularly our wounded warriors and 
their families. And during this time of sustained and frequent 
deployments, we will bolster our capacity to assist our airmen 
in managing both the obvious and the less obvious challenges of 
returning home from war.
    We intend to continue to progress since July when we 
established the Deployment Transition Center at Ramstein Air 
Base in Germany. Nearly 1,200 personnel have attended programs 
to decompress and begin their healthy reintegration into family 
life and unit of assignment. And we will further strengthen our 
efforts to develop the Air Force Resiliency Program in its 
ongoing assessment of the fitness of the Force, which will 
inform our continued efforts to improve quality of 
comprehensive support services.

                    CONTROLLING DOD HEALTHCARE COSTS

    In closing, I'd like to affirm my personal support for 
efforts to better control the cost of DOD healthcare. I respect 
and I celebrate the service and sacrifice of our retirees. They 
are, and always will be, honored members of the Air Force 
family. But I do believe that current DOD proposals are both 
modest and responsible.

                               CONCLUSION

    Mr. Chairman and subcommittee members, the Air Force 
remains committed to providing global vigilance, reach, and 
power for America's requirements today and for her challenges 
tomorrow. Thank you for your continued support of the United 
States Air Force and for our airmen and their families.
    Sir, I look forward to your questions.
    Chairman Inouye. All right. Thank you very much, General 
Schwartz.

                         NEW PENETRATING BOMBER

    I'd like to begin the questioning with a question on the 
new penetrating bomber. When is the initial operating 
capability planned for this aircraft?
    Mr. Donley. We estimate initial operating capability in the 
mid-2020s, Mr. Chairman. This is a very important initiative 
for us.
    Chairman Inouye. And how many do you plan to acquire?
    Mr. Donley. Between 80 and 100 is the target. This program 
is very much focused on affordability and poised for technical 
success, lower technological risk. We plan on taking advantage 
of existing technologies and other programs that are mature, a 
streamlined management process, and a strict limitation on 
requirements for the system going forward as ways to control 
cost curves and to keep it on schedule.
    Chairman Inouye. To the extent possible, realizing this is 
not a classified hearing, can you describe this new penetrating 
bomber's capabilities?
    General Schwartz. Mr. Chairman, the platform we envision 
would be a nuclear capable, optionally manned in either 
remotely or piloted variants, as the case may be, and it will 
be part, sir, of a family of systems. This will not be a lone 
wolf platform. It will be a platform that is part of the family 
of systems that includes direct and stand-off munitions, that 
includes intelligence, surveillance, and reconnaissance 
capabilities, that includes electronic attack capabilities, not 
necessarily all on board the aircraft, but provided, again, in 
a family of systems of context.
    Chairman Inouye. Mr. Secretary, General, thank you very 
much.
    The word efficiency has been used quite a bit today. When 
you do feel that you have realized this efficiency?

                      REALIZATION OF EFFICIENCIES

    Mr. Donley. Well, Mr. Chairman, the effort to identify 
lower priority programs and activities and to wring out greater 
productivity and efficiency in our organizations and how we 
manage our acquisition process and other dimensions, was a 
major focus for the Department of Defense, including the Air 
Force, at the end of last year. So the $33 billion that we have 
identified has been moved inside our future year defense 
program for over the next 5 years. So it is spread out over the 
5 years. We are tracking it in about 12 different categories, 
and each of those categories has a lead senior official, a 
general officer, or a Senior Executive Service (SES) senior 
civilian, who is tracking the progress of that work. And much 
of that work has already started. We are already down the track 
of restructuring our air operations centers, and we are in the 
process of making decisions on collapsing and combining some of 
our headquarters activities.
    The acquisition community has already booked in excess of 
$600 million in savings from tougher negotiations and smarter 
management of our acquisition programs. So these are--also fuel 
is a major issue for us. We have booked about $700 million in 
savings across the--on more efficient operational and 
infrastructure practices to get savings from fuel.
    Chairman Inouye. In bringing about this efficiency program, 
do you work together with other services because you are part 
of a team?
    Mr. Donley. We are working with other services. Sometimes 
we are taking best practices, if you will, from other services 
and bringing them over. In the case of, for example, the 
evolved expendable launch vehicle (EELV), we have worked 
carefully with the National Reconnaissance Office and NASA to 
get a stable investment--in that case, an investment rather 
than an efficiency, but to control costs and get a stable 
industrial base for the EELV program. So, that has been a focus 
of cross-agency work, to get the best value for the taxpayer 
across the full scope of government interaction with that 
contractor.
    Chairman Inouye. In describing the light attack on 
reconnaissance plane, you spoke of building partnership 
capacity. What do you mean by that?

             BUILDING PARTNERSHIPS WITH EMERGING AIR FORCE

    General Schwartz. Mr. Chairman, many air forces we interact 
with can operate--have the sophistication and the resources to 
operate F-16 equivalent aircraft or C-17 equivalent aircraft. 
But the reality is, is that many nascent air forces around the 
world with whom we want to establish a relationship, that are 
strategically important, cannot afford and do not have the 
level of technical expertise yet to operate those kind of 
aircraft. And so, it is a recognition of that reality that we 
need to be able to interact with them with something that is 
not quite what we routinely operate in our own Air Force.
    And, therefore, both on the lift side and on the light 
strike side, we are proposing to field modest aircraft that 
will enable us, again, to train with and advance these nascent 
air forces in a more resource conservative way that can be 
sustained by these nations.
    And in the process, Mr. Chairman, what we do is not just 
airplane stuff, but this is really about the whole of what an 
air force does, from operating air fields, to having 
engineering capacity, to how you care medically for aviators 
and others, and air traffic control, and logistics. These are 
the things that enable an air force to fulfill national 
taskings, and this is what we are talking about when we address 
building partner capacity.
    Chairman Inouye. All right. Thank you very much. My time is 
up.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I am pleased to join you in 
thanking the leadership of the Air Force for the excellent job 
they are doing.
    And I wonder, is it a concern to you that we may be trying 
to do too much, given the current economic realities that have 
changed the price of fuel, the cost of operations, maybe 
realignment of foreign governments, resource allocations to its 
military forces? Is it time to sit back or step back and take a 
new look at our obligations that we are assuming and that we 
are asking you to perform, and say, hey, wait a minute, you 
know, we really need to start cutting back in some areas that 
have been perceived to be immune from cuts or sacrosanct for 
whatever reasons for morale. A pilot we know is not going to be 
interested in staying in the Air Force for a career if there is 
not going to be any flying hours, or if the equipment and 
material that they are given to use and operate is dangerous 
because of lack of repair and that kind of thing.
    Have we gotten to a point where we need to take a hard look 
at some of these huge dollar amount costs that are 
skyrocketing, and we are just keeping on flying right up into 
the ionosphere with them? I worry about that. Do you?

                DIFFICULT RESOURCE ALLOCATION DECISIONS

    General Schwartz. We certainly do. In fact, all the chiefs 
do. And the commitment that each of us has made is that we are 
not going to follow the path that has occurred in the past 
where the forces became hollow, Senator Cochran. We would much 
prefer to be good--great, if you will--and smaller than to 
maintain our current size, if that is what is in the cards, and 
not be ready and not be capable. So if the resources require us 
to make these trades, as painful as they are, we prefer to 
remain the quality Air Force and the quality Army and the 
quality Marine Corps and Navy that the American people expect.
    Senator Cochran. Mr. Secretary?
    Mr. Donley. Well, sir, I think the President's national 
security strategy, the space strategy, other aspects of our 
work are effectively addressing the issues that you raise here, 
trying to balance internal commitments with overseas 
commitments, and really broadening the aperture for how we look 
at national security. We recognize in the Department of 
Defense, certainly in the counter insurgency operations that we 
have experienced in the USCENTCOM area of responsibility, that 
this is not just momentary work. There is whole of Government 
work that is required here where we require the commitment and 
the capabilities of other Government agencies and civilian 
expertise to help build capacity for self-government and 
economic sustainability in these challenged environments. So 
the military solution is not the only tool that we need to 
apply in these situations.
    I think we are also taking a broader look, and you see it 
in the President's policy with respect to Libya, toward 
coalition operations. Again, these complex political military 
situations we find ourselves in do not belong solely to the 
United States. They have a regional context. They have a global 
context that applies to our allies and partners in those 
affected regions, who need to be part of our work going 
forward. And so, I think you see that in the space policy as 
well, and I think you see a broadening perspective of how we 
need to work more closely with industries in the cyber field 
and also in reducing the cost of our acquisition process. I 
mean, it is getting major attention in DOD.
    Senator Cochran. At the time the budget request was 
submitted to Congress for the Air Force for the next fiscal 
year, we did not have the Mediterranean crisis on our hands and 
calling on us to supply airplanes and other defense forces to 
that region if we are called when needed. What is the impact on 
the budget of this situation in the Mediterranean right now? 
Have you had time to assess? Are you going to be submitting a 
supplemental request for the Congress to review any time soon?

                      OPERATION ODYSSEY DAWN COSTS

    General Schwartz. Sir, I can tell you that the current 
monetary investment is in the neighborhood of $50 million for 
the Air Force for what we have already done in terms of 
employment, and it is substantially higher than that, of 
course, for the entire DOD. I am not in a position to predict 
whether the administration will submit a supplemental request 
for operations in Libya.
    Senator Cochran. Mr. Secretary, what is your take on that?
    Mr. Donley. Well, the first thing we did was to start 
tracking the additional costs. We--again, we are in 
conversation with the DOD Comptroller, the Office of Management 
and Budget, and others on how these bills will be paid, and 
that is unresolved. But as the Chief indicated, the cost, 
depending on the expenditure of munitions, has been running for 
the Air Force roughly $4 million a day, so we are at the $50 
million point today. At the end of the 2-week--first 2 weeks, 
we will probably be in the $70 million range, and then we will 
have to assess, based on the changes in operational emphasis, 
which the President has announced and which are underway now in 
which coalition partners will take a stronger role on the 
strike side, and the U.S. Air Force and other parts of the U.S. 
military will provide--continue to provide much of the enabling 
capabilities underneath. As that stabilizes, then we will be 
able to see what sustaining costs would be going forward.
    Senator Cochran. Thank you, Mr. Chairman.
    Thank you very much.
    Chairman Inouye. Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Secretary Donley and General Schwartz, thank you for being 
here today, and thank you for your service to this country.
    Secretary Donley, I appreciated speaking to you--with you 
in February about the proposed retirements of the B-1 fleet. At 
that time, you assured me that my staff and I would receive a 
detailed briefing in the coming weeks. Six weeks have passed. 
Can you tell me when we can expect a briefing?

                        B-1 FLEET MODERNIZATION

    Mr. Donley. Very soon, Senator. That work is coming to 
closure. The Chief and I have had preliminary briefs outlining 
how this will work.
    As you are aware, the B-1s are deployed, of course, at----
    Senator Johnson. Yeah.
    Mr. Donley [continuing]. Ellsworth, and also at Dyess Air 
Force Base, Texas and so we are working through the details of 
where those aircraft will come from. I can tell you, the 
solution will involve both bases, and it will be taking into 
account that the schoolhouse is at Dyess. It is not completely 
an apples-to-apples comparison in terms of how those 
adjustments are made. But we are working through the final 
stages of that and should have that ready for your staffs in 
the next week or two.
    Senator Johnson. Mr. Secretary, how has the Air Force 
determined that 60 aircraft will be enough to meet both current 
and future operational needs?
    Mr. Donley. Well, Senator, for the B-1 and for other 
aircraft in our fleet, this is a fleet management issue in 
terms of how much resources are available and what draw those 
fleets are making on our maintenance requirements going 
forward. And it is part, I think, of a pattern of managing a 
fleet across the Air Force. We have often in the past adjusted 
the size of the fleet by a few tails at a time to help provide 
the resources required to modernize the fleet, in this case, to 
upgrade some cockpit avionics for the B-1, make some other 
modifications, and also meet the increasing requirements for 
maintenance for this aircraft as well. So those are the factors 
that go into the sizing of----
    General Schwartz. Senator Johnson, I would only mention----
    Senator Johnson. Yeah. Yeah.
    General Schwartz [continuing]. That it is important to take 
the entire bomber fleet----
    Senator Johnson. Yeah.
    General Schwartz [continuing]. Into consideration when we 
address a question such as you asked, that it is the 60 or 66 
B-1s, but it is also the 76 B-52s. It's the 20----
    Senator Johnson. Yes.
    General Schwartz [continuing]. B-2s that we take into 
consideration in making that assessment.
    Senator Johnson. Yeah. Are efforts--Mr. Secretary, are 
efforts still on track for the MQ-9 squadron to arrive at 
Ellsworth Air Force Base in early 2012? Does the Air Force 
still estimate the assignment of about 280 personnel to 
Ellsworth to support this mission? General?
    General Schwartz. Yes. It is still on track. It would be 
about 280 folks. And, again, that particular unit is part of 
our growth path to 65 orbits of remotely piloted aircraft 
capability by 2013.
    Senator Johnson. General, the extended comment period for 
the Powder River Training Complex environmental impact 
statement ended on January 20, 2011. When does the Air Force 
anticipate issuing the final environmental impact statement on 
the proposed expansion of the training area?

                   POWDER RIVER TRAINING COMPLEX EIS

    General Schwartz. Senator, I do not have that right off the 
top of my head. With your permission, I would like to present 
that for the record.
    [The information follows:]

    The Air Force is preparing a Powder River Training Complex 
Environmental Impact Statement (EIS) for the expansion of the 
current Powder River Military Operations Area and Powder River 
Air Traffic Control Assigned Airspaces to help meet military 
flight training needs and enhance training capabilities in 
regions of South Dakota, North Dakota, Wyoming and Montana. A 
Federal Register Notice of Availability (NOA) for the Draft EIS 
was published on August 20, 2010. In response to a 
congressional request, the Air Force extended the public 
comment period beyond the required 45 days, from November 15, 
2010 to January 20, 2011.
    The EIS process is continuing to move forward with a target 
issuance of an NOA for the Final EIS in the first half of 2012. 
To issue the NOA, the Air Force is working to resolve all 
aeronautical issues identified by the Federal Aviation 
Administration (FAA) (a Cooperating Agency for this EIS) and to 
complete the consultation process for the National Historic 
Preservation Act (NHPA) and the Endangered Species Act. A 
mandatory 30-day waiting period will begin after the NOA for 
the Final EIS is published in the Federal Register after which 
the Air Force can sign a Record of Decision. The FAA has 
overall authority for charting new airspace and its own 
procedural requirements. The FAA will consider the Air Force 
decision and its own findings before making the final decision 
on the Powder River airspace proposal.

    Senator Johnson. Yeah. When the Air Force Financial 
Services Center was created, it was touted as a way to save 
money and promote efficiency. Now, just 5 years later, I 
understand the Air Force is proposing undoing many of those 
changes. Has the Air Force come to determine that those changes 
are necessary? Can you speak specifically as to what services 
will be sent back out to the bases, and what financial services 
will remain at Ellsworth Air Force Base? How many jobs, both 
military and civilian, will be impacted by those changes?

                  AIR FORCE FINANCIAL SERVICES CENTER

    Mr. Donley. Sir, we are working through the numbers that 
you refer to as part of our briefing to you in the next couple 
of weeks, which will include the B-1 adjustments you previously 
referenced.
    Our experience on the consolidation of financial services 
simply was that, with respect to military, I believe there were 
individual specific changes for each airman that would be more 
effectively accomplished, in terms of adjustments to their 
military pay, if we had personnel more closely connected to 
these airmen. And at the recommendation of our major commands, 
the financial management community made the decision to 
redistribute those folks from a centralized posture at 
Ellsworth Air Force Base, South Dakota back to the major 
commands. So that is the big picture for what is intended. We 
are working through the numbers, and you will get a full 
briefing on that in the next couple of weeks.
    General Schwartz. Senator, I would only add that that part 
of the reason this has occurred--sort of the head fake, if you 
will----
    Senator Johnson. Yeah.
    General Schwartz [continuing]. Is that the Enterprise 
Resource Planning System, that was supposed to underwrite 
this--it is the defense integrated military human resources 
system (DIMHRS)--never came to pass.
    Senator Johnson. Yeah.
    General Schwartz. And so, given the absence of that 
architecture, it became necessary to move back away from a 
centralized model to something more distributed.
    Senator Johnson. My time has expired. Thank you.
    Chairman Inouye. Thank you.
    Senator Coats.
    Senator Coats. Thank you, Mr. Chairman. Thank you, 
gentlemen, for your testimony here.
    I wonder if I could drill down and do a specific topic, and 
I am trying to get my knowledge base built on this alternative 
engine issue.
    The--I generally hold the principle view--foundational 
view--that competition generally results in a better product at 
a lower price over a period of time. And I have supported 
competition in systems on a number of occasions for that 
reason.
    However, we are in a unique time now relative to our 
deficit, our costs. We are stretched thin. You are stretched 
thin. You have to prioritize in ways perhaps you have not had 
to do in some time. And so, I am trying to get a handle on what 
potential--there have been a number of estimates--potential 
long-term savings would be over the life of the F-35 or the 
engine--the 135, 136--as compared to what the cost is going to 
be in the short term, and potentially how that savings--
potential savings could be directed to either lowering the cost 
per copy of the plane--and I understand some allies are 
concerned and some others are concerned about the increasing 
cost per copy of that plane--or perhaps moved and shifted to 
some other higher priority. So can you help me a little bit 
better understand that, why that decision was made? I know it 
was made by the Department, but how--what the Air Force take on 
that is?

                 JOINT STRIKE FIGHTER ALTERNATE ENGINE

    Mr. Donley. Senator, I think you put your finger on it, 
that the Department's analysis of this issue at the highest 
level really was that the sure costs in the near term of 
funding a second engine were more clear than the long-term 
savings to the program, which were more murky. That economic 
analysis is down at the DOD level.
    There are, I think, two additional perspectives on this. I 
know General Schwartz can add to this as well. The Joint Strike 
Fighter Program, is our largest program, but it has had 
difficulty, and we have had to restructure that program twice 
in the last year. We think we are getting a better handle on 
it, but committing to a second engine in this program now would 
add to the cost of the Joint Strike Fighter Program even more. 
And we are reallocating dollars to get this program on track, 
so it would be yet another brick on top of the Joint Strike 
Fighter Program at a time where we are trying to get control 
over costs in that program.
    And finally, we like competition. We like the idea of 
having backups and backups to backups, and backups to backups 
in the Department of Defense. But in this fiscal environment, 
we need to make some tough choices about where to put marginal 
dollars. And in this case, we felt like the reliability that 
goes with modern engines compared to those of a generation or 
two ago justified this decision. Chief?
    General Schwartz. Sir, if I may just elaborate at the 
practical level. As the Secretary suggested, this is a question 
of balancing near term firm costs versus longer-term soft 
savings.
    But fundamentally, the question for us is, a second engine 
means a second supply chain. It means a second training 
pipeline. There are costs in manpower associated with that.
    The truth of the matter is that we operate a number of our 
aircraft with one engine. Now admittedly, it is not a single 
engine plane like the F-35, but the F-22 has one engine. The 
FA-18 EF has one engine. The big airplanes all have a single 
engine, although multiple engines on one machine. And so, the 
notion that there is inherent risk in this, based on our 
experience, we think that is manageable.
    Equally important is that the F135 is a descendant of the 
F119, which is in the F-22, and we have had pretty good 
experience with that. So, on balance, this is one of those 
close calls. I think the Secretary and I endorse the notion of 
competition, but the question is, what can we afford? And at 
the moment, the judgment is this is one of those things that we 
can pass on, sir.
    Senator Coats. Relative to the F-22, let me ask a question 
about their current activities in North Africa. We have been 
launching a lot of Tomahawks. Would it have been more cost 
effective to use the F-22? Could we have accomplished the same 
mission at lower cost? What is your take on that?

                  F-22 AND ACTIVITIES IN NORTH AFRICA

    General Schwartz. Senator, clearly had the F-22s been 
stationed in Europe, both closer in proximity and, therefore, 
more available, they undoubtedly would have been used. But as 
this came together fairly quickly, the judgment was made to 
apply the various tools that we have in our tool kit, as we 
did, using the resources that were in close proximity, both in 
Europe, in southern Europe, in the Mediterranean, and so on. 
So, the fact that the F-22 did not perform in this particular 
mission was not an ad hominem against that weapon system at 
all. It really was an expedient judgment with respect to 
putting the plan together, to executing on a very rapid time 
line, and so on.
    Mr. Donley. Just to amplify briefly as well, the F-22, of 
course, has some air-to-ground capability, but it is optimized 
for air-to-air engagements. So the air-to-ground capability is 
somewhat more limited than that of the F-15Es, for example, 
which were already available in Europe. And I would say, in 
terms of operational efficiency--and the Chief is more of an 
expert on this than I am--I would say one of the initial 
outcomes--very premature and still early in the Libya 
operation--has been just to reinforce the effectiveness and the 
efficiency of the bomber forces in environments, such as this, 
where they have been able to, with very few missions, drop lots 
of ordnance very accurately against multiple targets. The 
bomber force has proven to be very effective in this operation.
    Senator Coats. Mr. Chairman, I noticed that my time is 
running out. Let me just say at the end here, I like to 
associate myself with the remarks of Senator Cochran relative 
to the fiscal crunch that we are now in and the need to really 
establish priorities. The realities are that--and I am not 
picking on any one service here or even the Department of 
Defense. Everybody that's come before me personally relative to 
their program or appropriation request or in public here, I 
have basically made the same pitch, and that is, I think it is 
incumbent on all of us to, in a sense, think in terms of a plan 
B. What if we do not get the budget line that we think we need? 
And I know everything has been scrubbed, and efficiencies have 
been built in, and so forth, but even having said that, I think 
it is possible that we are not going to get the numbers we need 
in the future. And, so, therefore I think the prioritization 
of, you know, what is absolutely essential, what is very, very 
important, but not absolutely essential, what is important, but 
not very, very important, and on down the line is something 
that we need to look at. And I know the Department is looking 
at that, and it is unfortunate that we are in this situation, 
even when it comes to national security issues. I think the 
reality is we are going to have to make some of those tough 
decisions, and it really is going to be helpful if we are able 
to turn to each of the agencies and say, have you scrubbed this 
thing through and, because we cannot go here, but can go here, 
how do we do it? It is, I think, much better if you can present 
us with your plan as to how that can be best accomplished 
rather than having us try to make that determination. So I 
would just throw that out there as a two cents worth of counsel 
and advice in terms of what I think is coming down the line.
    Thanks, Mr. Chairman.
    Chairman Inouye. Thank you. Senator Hutchison.
    Senator Hutchison. Well, thank you very much, Mr. Chairman.
    And just following up on a couple of areas, one that 
Senator Coats was just mentioning. I mean, that is a 
realization that we all agree with. The F-35, you have said 
that they are performing satisfactorily, and yet you are 
cutting back on the production--57 aircraft over the next 5 
years. And that is going to raise the price of each model 
approximately $5 million per unit. So I just would ask in that 
context, is that saving money now, but paying the piper later? 
And what is your thinking on doing that?

                            F-35 PRODUCTION

    Mr. Donley. Well, Senator, the F-35 has a long history. It 
has been a very concurrent program from its origins, and a very 
aggressive program from its origins. Bringing on new 
technologies, even after the F-22's capabilities and experience 
from that program, additional capabilities into the F-35 
program. But a lot of concurrent development and planning for 
production that was a very high risk venture from the 
beginning.
    Senator Hutchison. Now are you talking about the vertical 
capability factor?
    Mr. Donley. The fact that we were building three variants 
at the same time. The fact that we had all our international 
partners in from the beginning is a good thing, but, again, a 
complicating factor. We had to invent new capabilities for the 
F-35 that had not been demonstrated previously in any other 
fighter platform. So, it had a number of challenges with it.
    And the last 2 or 3 years of this program, we have focused 
very carefully on balancing the continuation of development and 
the need to work the kinks out of the program--before we get 
too far up the production ramp. And that is really where we 
are, making that delicate transition from development to 
production, where both are going on at the same time.
    Senator Hutchison. So you are really experimenting 
continually, and that is why you are slowing down?
    Mr. Donley. We have stretched out the development and 
slowed down the production. We paid for the additional 
development by taking dollars from the plan for production and 
putting them into the development program. So that is where we 
have been the last couple of years.
    We have this year, I think, 32 Joint Strike Fighters across 
all the services proposed for this fiscal year 2012 budget. And 
we are building them at low rates, but they will not have all 
the capability that we want, so we do not want to build too 
many of those early.
    But we are committed to this program. There have been cost 
increases. There is no question we are very frustrated with 
this, but we are also very focused on how to wring the cost out 
of that program where we can. But we are committed to going 
forward with this program. Our Air Force is committed to this 
program, and so are about eight or nine other allied air forces 
as well. So, we are committed to completing this program and 
getting on with it.
    Senator Hutchison. Let me ask you on the B-1, you are 
cutting back, as was mentioned earlier, six of the aircraft. 
And yet it is certainly performing in Afghanistan on a 
continuing basis. You are saying that the savings in the out-
years will be about $357 million. You will reinvest in 
modernization about $125 million. My question is, of course, 
are you thinking that that is enough modernization to get us to 
the mid-20s when you intend to start replacing? I am concerned 
that you are cutting back six, and then only modernizing at 
maybe a modest level. So what is the thinking there?

                        B-1 FLEET MODERNIZATION

    General Schwartz. Ma'am, your numbers are exactly right. 
And in 2012, we are talking about $67 million in savings to 
be--with about $32 million reinvested.
    What we are doing on the airplane is what we need to do--
make improvements in the cockpit, communications, and so on. It 
is a good airplane, as you suggested. It is serving extremely 
well in Afghanistan in what essentially is a close air support 
role. It currently flew missions in Libya departing from 
Ellsworth Air Force Base, South Dakota, went all the way into 
theater, and has since returned.
    But our belief, again, based on that theme I mentioned 
earlier on quality is that this is a rational fleet management 
decision in order to maintain the remaining aircraft at the 
level of capability and reliability that we want for the next 
decade at least.
    Senator Hutchison. And--but the 6, when they are retired, 
are they going to be unable to be returned if you did need 
them?
    General Schwartz. Ma'am, we have not made that decision in 
terms of precisely what status it would have in the bone yard. 
There are different levels of maintaining aircraft. My hunch 
would be, given the financial situation we face, that it would 
be in long-term storage and not immediately recoverable.

        PREPARING/DELIVERING SPACE SHUTTLE ``ATLANTIS'' TO OHIO

    Senator Hutchison. Let me just ask you. I was interested 
and also somewhat concerned about a $14 million request for the 
Air Force budget for the preparation and delivery of the Space 
Shuttle Atlantis to the museum in Ohio. And I am concerned 
about that because presumably the administration says that they 
have not made a decision about those, and there are other 
places where the National Aeronautics and Space Administration 
has had a significant impact, including Houston, that very much 
wants to have something so significant to our history. And my 
question is, is that a subsidy that would give a preference to 
the Air Force and to Ohio, and is that warranted with this kind 
of a budget constraint? Secretary Donley, or either one of you.
    General Schwartz. Ma'am, I----
    Senator Hutchison. Whoever would like to take that ball.
    General Schwartz. I would just say that whoever gets these 
platforms will have to have certain expenses in terms of 
transporting them to their ultimate destination and preparing 
them for safe display in a non-operational mode. So that is 
what these dollars were intended to do. The dollars were in our 
budget request. We were planning ahead, and obviously we put 
the 2012 budget submission together last year in anticipation 
of a positive decision.
    I might just mention that with respect to the Atlantis, 
that platform has flown more dedicated DOD missions than any 
other space shuttle. Thirty-eight members of the various 
services flew on the Atlantis, so it has some legacy with 
respect to DOD.
    Senator Hutchison. I understand that totally. I mean, and I 
relate to that. I think there are several areas that have 
legacy claims. I think you are one. I just hope that there is 
not a decision that puts it ahead of legacies in basically 
Florida, Houston, and California. I mean, there--I wish there 
were four or five that we could split up, but I was concerned 
that there might be an advantage already in place, and I hope 
that is not the case.
    Thank you.
    Chairman Inouye. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    General and Mr. Secretary, thank you for your testimony 
this morning, and thank you for your service. Appreciate it.
    Talking a little bit about energy this morning, and the 
President is going to be speaking to that just about now, I 
guess, and our energy policy. I know that within the Air Force, 
it is my understanding now that about 99 percent of the Air 
Force fleet is certified for the Fisher-Tropsch process using 
either coal to liquids or gas to liquids technology. I think 
that that is--that is a good move, that it is positive. We 
certainly encourage that.
    Back in the 2009 the Defense appropriations bill, the Air 
Force was directed to conduct a study on a coal to liquids 
plant up in Eielson Air Force Base, Alaska. And we have had 
conversation in previous subcommittee hearings about the status 
of that study and the monies that were spent.

                       COAL TO LIQUIDS TECHNOLOGY

    The question that I have to you gentlemen this morning is, 
give me a little bit more of an update in terms of where you 
feel the Air Force is going with regard to the development of 
alternative fuel sources, and particularly in relation to our 
Alaska facilities. Our Alaska bases, as you know, we have got 
incredible coal supplies, incredible natural gas supplies. I 
happen to think that we could be the fueling station for the 
country in many regards.
    I would also like a little bit of an update in terms of 
where the $10 million kind of went in terms of studying that 
feasibility on the coal to liquids plant at Eielson Air Force 
Base, Alaska. So, if you could give me an update on that, and 
then kind of project out a little, if you will.
    Mr. Donley. Sure. We have expended the $10 million. It was 
divided into basically two halves. Part of that went to the 
Patel Corporation. I think the University of Alaska, if I'm not 
mistaken. Part of the money was spent to investigate the 
feasibility of the basic technology and the work at Eielson, 
and then part of it went to the site survey work at that 
location. I do not have a specific outcome of that for you. I 
can provide that----
    Senator Murkowski. That would be appreciated.
    Mr. Donley [continuing]. For the record.
    Senator Murkowski. Thank you.
    [The information follows:]

    The Air Force is interested in environmentally friendly, 
domestically produced and cost competitive alternative aviation 
fuels to enhance its energy security posture through diverse 
fuel sources. In support of this, the Air Force conducted 
several analyses to study viability of a coal-to-liquid plant 
at Eielson Air Force Base in Alaska using funds authorized by 
Congress ($5 million for operations and maintenance; $5 million 
for research, development, testing and evaluation).
    The $5 million in operations and maintenance funds was used 
by the Air Force, led by the Air Force Real Property Agency, to 
complete a mission impact analysis and a business case analysis 
in August 2010. The mission impact analysis determined there 
would be minimal impact to operational and support missions. 
However, the business case analysis concluded that development 
of coal-to-liquid production facility was not feasible due to 
high capital costs, limited local market for fuels, low crude 
oil prices (less than $99/barrel), uncertainty in carbon 
requirements and sequestration, and availability of government 
loan guarantees to secure lower financing costs.
    The $5 million in research, development, testing and 
evaluation funds was used by the Air Force, led by the Air 
Force Research Laboratory, to complete a scientific survey and 
a technical analysis. Both technical reports are currently 
under review and thus have not been publically released. The 
scientific survey, which was done by the Alaska Center for 
Energy and Power at the University of Alaska, Fairbanks, 
assessed options for geologic sequestration, biological 
sequestration, and other carbon management and disposal 
options. The initial analyses do not identify any engineering 
issues; however, the lack of technical maturity adds high 
project risk.
    The technical analysis performed by the Air Force Research 
Laboratory in February 2011, preliminarily found that, although 
the project is technically feasible, there are a number of 
significant concerns with implementation. These concerns 
include the disposal of generated waste (i.e., slag, coal ash, 
and sulfur); major environmental issues (i.e., PM2.5 emissions, 
ice fog formation, and effects on local hydrology, particularly 
ground water); transportation impacts; air emission permitting; 
and a chemical process hazard subject to the Department of 
Homeland Security's chemical security requirement.

    Mr. Donley. At the larger level, obviously we are a primary 
consumer of energy. We are very interested in having developed 
alternative sources of energy, whether it be coal to liquid, 
gas to liquid, biomass, or other renewables, both for our 
flying operations and our installations as well. But we do not 
see ourselves as a manufacturer or a provider, so we are very 
interested in working with the rest of the Department of 
Defense and with the Department of Energy to sort through what 
the optimal aviation fuel blends will be for the future--which 
of those will--are not just scientifically feasible, but which 
are most economically viable and sustainable going forward.
    Senator Murkowski. Are you sorting that through now?
    Mr. Donley. Those discussions are being undertaken at the 
DOE and DOD level. It is not an Air Force decision. And the 
aviation industry is part of this as well going forward. But 
not all of that work has gelled yet. As you indicated, we 
certified our engines for alternative sources, so we have 
confidence that we can fly our airplanes with these alternative 
fuels. So, that work is largely complete. The issue now in 
front of us is where will alternative fuels come from, and 
which will be the most economically viable. But we are ready to 
buy them, and especially if they will be available at 
competitive economic prices.
    Senator Murkowski. Well, I think we would be interested in 
perhaps learning a little bit more as you sort through where 
you feel not only the most economic, but really in terms of 
greatest efficiencies and performance needs, because, again, we 
have got a little bit of everything up there. But we need that 
customer, and happy to be working with the Air Force--with the 
military to advance this.

                         PACIFIC RANGE COMPLEX

    General Schwartz, I wanted to ask you just very quickly, 
your comments on the proposed enhancements to the Joint Alaska 
Pacific Range Complex. In my visit to Afghanistan, as we were 
doing the fly over, looking down over so many parts of that 
country, it sure reminded me of home. And your time in Alaska 
and your opportunity to fly over our ranges, and I am sure you, 
too, have noted the comparison of the extreme open spaces and 
big mountains and lots of snow.
    The question that I have, as we look to the various 
proposals that are out there to modernize the Alaska Range 
Complex--we have got an environmental study that is underway 
right now--can you comment on the proposed enhancements--the 
value of these to the Joint War Fighter, the additional 
capabilities that would be provided?
    General Schwartz. Clearly, you know, Alaska is unique and 
the Pacific Range Complex is a unique installation, both in 
terms of its scope, the air space available, the land ranges 
beneath, and so on. At the moment, we have five exercises a 
year, three of which are known as Red Flag Alaska, and two of 
which are Joint Chiefs of Staff sponsored exercises yearly. 
That tempo we expect to remain at least at that level. And so, 
this is, along with just a handful of other ranges in the lower 
48, this is a very important place that we, as a joint team, 
will continue to utilize in the years ahead. There is no doubt 
about that.
    And so, the study that you referred to, in terms of the 
improvements, is not yet final, and that certainly will inform 
decisions as we go forward. But I think the key thing is there 
is not another location that has the combination of land and 
air space that the Pacific Range Complex does.
    Senator Murkowski. Well, as you indicated, that study is 
still underway. There have been issues that have been raised 
within the State about the proposed expansion. I think it is 
fair to say, though, that Alaskans--the Alaskan civilian 
community wants to work with the Air Force, with our military 
community, as we provide this incredible training range to the 
Nation.
    With that, I thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I want to begin my questioning by just making two comments.
    First, and I know the chairman and the vice chairman share 
this concern, I am increasingly worried about the impact not 
only on the Air Force, but on the entire Department, of the 
Pentagon having to operate under short-term continuing 
resolutions. At a time when we are involved in three wars, I 
just think it is an irresponsible situation, and we have got to 
get the work done on the budget. If it cannot be done, then I 
really hope that we will move the DOD appropriations bill 
separately and to get that done, because I know it is creating 
very real problems. And ironically, it is going to end up 
increasing costs in the long term if you are having to put out 
stop orders, and disrupting the supply chain, and juggling your 
accounts. We are going to end up paying more.
    So, I just--I realize I sound like a Johnny one note on 
this issue, but I feel so strongly about it.
    Second, I do want to take a moment to recognize and thank 
all the Air Force personnel who have been so involved in the 
military operations in Libya. Regardless of my individual view 
on whether that is a wise operation or not, there is no doubt 
that as usual our military has operated superbly. And I know 
that the Air National Guard Air Refueling Wing in Bangor, 
Maine, where I live, has been playing a supporting role by 
refueling aircraft en route to supporting the North Atlantic 
Treaty Organization (NATO) operation and the efforts in Libya. 
So, I just want to express my thanks to the men and women of 
the Air Force as they are involved in this mission.
    Mr. Secretary, the chairman asked you about the 
efficiencies that the Air Force had identified, and you 
indicated fuel savings would be part of those efficiencies, and 
Senator Murkowski also sort of followed up in that area as 
well. The Comptroller of the Pentagon has indicated that the 
increase in oil prices is increasing the cost of fuel, and that 
is a potentially very serious problem for the Pentagon. And 
obviously, the Air Force is particularly affected when there 
are increases in oil prices.

               STRATEGIC BASING PROCESS FOR KC-46A TANKER

    I understand that the Air Force is currently in the 
strategic basing process to select the locations for basing the 
first KC-46A aircraft. Earlier this year, I wrote to you 
encouraging the Air Force to consider the proximity of 
candidate bases to operational air refueling tracks. And to me, 
this makes all the sense in the world because it minimizes the 
fuel that is consumed in the time that it takes to fly from the 
home base to the point where the aircraft are actually 
refueled. And in learning more about this, because of the 
critical role that the Air National Guard base in Bangor has 
been playing with our operations in Afghanistan, Iraq, any 
overseas operations, I learned that taxpayers pay about $85 per 
minute in fuel costs alone for the current tanker in our fleet.
    My question is to you, Mr. Secretary, where--will these 
real world operational costs, such as the distances to 
operational refueling tracks, be considered in the basing 
criteria?
    Mr. Donley. Senator, we are still working through the 
criteria. We have not settled on them yet. General Schwartz and 
I will be reviewing those probably in the summer timeframe. 
This work is scheduled to get underway to the back half of this 
calendar year.
    First of all, we will want to take advantage of and 
understand completely the new capabilities that will be 
available through the KC-46, and take into account the 
operational improvements that come with that. We will be 
looking at obviously the Air Force operational requirements 
across the United States and elsewhere, but also the Combatant 
Commanders' requirements in various regional contingencies. 
That is our starting point at this point in time. We have not 
zeroed down beyond that.
    I would say that the current KC-135 fleet is in excess of 
400 aircraft. This initial KC-46--the KC-46 buy is 179 
aircraft, and it is going to take the better part of 12 years 
roughly to buy those 179 aircraft. So we are not going to make 
the beddown decisions on the KC-46 in advance of need. We need 
to let the time unfold as those tankers are being delivered, 
make sure we make the decisions in advance of but not too far 
in advance of need.
    So, just as a reminder, there are many bases that want to 
be the first in the Air Force to get the KC-46, but there will 
be 179 of them, and hopefully modernized tankers beyond that. 
We will be taking the kinds of issues that you raised into 
consideration.
    Senator Collins. General.
    General Schwartz. If you would allow me just to brag on the 
Air National Guard a little bit, the wing that is flying in 
support of Libya out of Moron, Spain is led by an Air National 
Guard colonel from the Pittsburgh unit, and aircraft from 
Bangor are there as well. So, I think the key thing is here 
that the Air National Guard has been all in, and we certainly 
salute that.
    Senator Collins. Absolutely. They have been absolutely 
critical, and that base in Bangor is much busier than many 
active duty bases, in fact, in its refueling mission.
    Just a very quick follow-up. There have been reports that 
can be read to suggest that you have already made tentative 
decisions to select 11 bases. That has appeared twice. If you 
have not settled on the criteria, then I assume that those 
reports are not accurate. General Schwartz.
    General Schwartz. They are not accurate. What happened was 
in order to run the competition for source selection of the KC-
46, we had to have representative bases to look at in order to 
do the bed down analysis. And there were 11 bases, nine United 
States and two overseas. That was not presumptive in terms of 
what the actual bed down would be, as the Secretary suggested, 
in the years ahead, not presumptive at all.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. All right. Thank you very much. The vice 
chairman and I will be submitting questions for your 
consideration. And we thank you for your testimony this 
morning.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Michael B. Donley
            Questions Submitted by Chairman Daniel K. Inouye

          AFFORDABILITY OF AIR FORCE RECAPITALIZATION STRATEGY

    Question. Secretary Donley, over the next several years the Air 
Force is planning to recapitalize portions of its fighter, tanker, 
bomber, and helicopter fleets which will cost billions of dollars per 
year. Given the current budgetary environment, how does the Air Force 
plan to afford all of these programs simultaneously?
    Answer. Based on strategic and fiscal guidance, the Air Force 
Corporate Structure develops a Program Objective Memorandum (POM) that 
achieves the right balance of resources between providing capabilities 
for today's commitments and posturing for future challenges. During 
Corporate Structure deliberations, savings through efficiencies, cost 
growth issues, and program phasing and quantities are thoroughly 
reviewed to ensure the resources allocated to Air Force operations and 
capabilities investment are optimized to the greatest extent practical. 
Using this process, we intend to maximize use of every dollar in the 
fiscal year 2012 PB through prioritizing our requirements to meet 
strategic guidance, force structure management, and resource 
management. Strategic resource management will include evaluation of 
our investment in existing fleets during transition to maintain the Air 
Force operational capability. As resources are further constrained, 
more difficult decisions will be required.
    Question. Secretary Donley, which recapitalization program has the 
largest risk of cost overruns and what is the Air Force doing to 
mitigate those issues?
    Answer. The F-35 program, in particular, has seen significant cost 
growth due to a multitude of reasons, as discussed and examined in many 
forums. Going forward, the Air Force believes the F-35 program is on 
solid ground, with realistic development and production goals and a 
significant reduction in concurrency, as a result of the recent 
Technical Baseline Review. Also, the Government awarded a fixed price 
contract for the fourth low rate initial production lot (LRIP Lot 4) on 
November 19, 2010. This is the first fixed price production contract 
for the program, and it occurred 2 years earlier than envisioned in the 
acquisition strategy. With regard to engine affordability, the F-35 
engine Joint Assessment Team (JAT) investigated F135 propulsion costs 
in 2010 and provided a should cost objective. The propulsion team is in 
the process of implementing the JAT recommendations with a focus in the 
coming year to ensure we make the necessary investments to achieve F135 
cost reduction goals.
    The Air Force is committed to reducing the risk of cost overruns in 
this and other recapitalization programs using techniques we are 
applying across the force; by improvements in our program management 
processes, including cost estimation, contracting, and acquisition 
strategies that emphasize competition and using proven technology when 
possible.
    One key step to avoiding an overrun in the future is to start with 
an accurate estimate up front. The Air Force has made a concerted 
effort to utilized Fixed-Price and Fixed-Price Incentive Firm Target 
type contracts whenever possible and at the earliest phases of a 
program to stabilize costs. These incentives encourage contractor 
innovation to bring programs in below target cost by sharing those 
savings with the contractor.
    The Air Force is also focused on managing the cost of our 
acquisition programs with continuing efforts to manage technology 
maturation and transfer to development, understand and reduce overhead 
costs, negotiate better prices, and execute more economical and 
efficient production rates.
    The KC-46A and the helicopter recapitalization programs will use 
competitively selected non-developmental aircraft platforms as their 
foundations, thus avoiding the large cost uncertainty of development 
and testing of a new platform.

                          HEALTHCARE PROPOSALS

    Question. Secretary Donley, the increases in co-pays have been 
proposed previously. Could you explain how these proposals are 
different and why they should be reconsidered by Congress at this time?
    Answer. The TRICARE Prime enrollment fee was established in 1995 
and set at $230/$460 for individuals/families. This fee has not changed 
in 16 years. Enrollees who pay this fee subsequently pay no TRICARE 
deductible (reducing the effective cost of enrollment to $80/$160 per 
year). The expectation had always been to raise the enrollment fee on a 
periodic basis, but this has never happened. In 2005, DOD attempted to 
increase the TRICARE enrollment fee by approximately 300 percent over 3 
years to again have some parity with civilian health premiums. This 
proposal was met by significant resistance from beneficiary 
organizations, and Congress ultimately decided the increase was too 
severe and prohibited any increase in TRICARE Prime enrollment fees. 
Having learned lessons from the previous attempts at increasing TRICARE 
enrollment fees, and out of genuine concern to not introduce unexpected 
and steep hikes in out-of-pocket costs, the Department has put forward 
the most modest fee increase possible ($2.50 or $5/month for 
individuals/families). The proposal indexes any future enrollment fees 
to a medical inflation rate, thereby moving to a regular and gradual 
increase from year to year, and also excludes from fee increase the 
following special populations of retirees: survivors (regardless of 
when or how the service member died), and medically retired military 
members and their families.
    We believe this proposal represents a fair and responsible increase 
in TRICARE Prime enrollment fees, and provides a balanced approach to 
managing the escalating healthcare costs of our Military Health System 
while ensuring we continue to provide the best healthcare in the world 
for our warriors and their families.

            REMOTELY PILOTED AIRCRAFT PERSONNEL REQUIREMENTS

    Question. Secretary Donley, the Air Force has quickly expanded its 
unmanned aerial vehicle missions in the past few years.
    How is the Air Force doing in meeting the requirement for pilots 
for these Remotely Piloted Aircraft (RPA)?
    Answer. The Air Force is training at maximum capacity and has 
enough pilots to meet the current RPA requirement. Due to increased 
operational demands, the Air Force continues to operate MQ-1 and MQ-9 
aircraft at surge manning levels. As the operations tempo slows, pilot 
production will enable the Air Force to begin normalizing RPA pilot 
manning levels.
    Question. With the information being generated from this increase 
in Remotely Piloted Aircraft patrols, does the Air Force have enough 
personnel to process the additional data?
    Answer. Yes. The Air Force has planned, programmed, and is fielding 
the requisite number of analysts to support the RPA mission growth 
through streamlined operations. Using streamlined crewing procedures, 
Air Force Distributed Common Ground System (DCGS) analysts are aligned 
against the highest priority intelligence requirements to address the 
exponential increase in ISR demand. Due to the training lead times, 
much of the programmed manpower increases in Air Force DCGS have not 
yet reached the field, but the Air National Guard, through volunteerism 
at its Air Force DCGS sites, has surged to help mitigate any current 
shortfalls. Additionally, the Air Force is taking steps to maximize the 
analytical effectiveness of our ISR force by (1) partnering with 
National Geospatial-Intelligence Agency, Air Force Research 
Laboratories, Defense Advanced Research Projects Agency, and industry 
to find and integrate automated target cueing and exploitation tools; 
and (2) federating mission exploitation with other military Services 
and Coalition partners.

                     SATELLITE ACQUISITION STRATEGY

    Question. Over the years, the Air Force has struggled with many of 
its satellite acquisition programs, with schedule delays measured in 
years, and cost overruns measured in the billions. The budget includes 
a proposal to bring satellite costs under control through incremental 
funding and $3.2 billion in advance appropriations for fiscal years 
2013 through 2017.
    Secretary Donley, what other options did the Air Force consider to 
control satellite costs? How much will the Air Force save under this 
strategy, and when do you expect those savings to start?
    Answer. The Air Force is proposing the Evolutionary Acquisition for 
Space Efficiency (EASE) approach to address some of the cost and 
schedule difficulties experienced in satellite acquisition. Over the 
past several Program review cycles, as many of our complex satellite 
systems have begun transitioning from development to production 
programs, we have been struggling with how to most affordably procure 
these systems under our current policies and procedures. We have tried 
and employed several methods and strategies including: buying on need; 
inducing production pauses to spread funding requirements; stretching 
Advanced procurement limits in both dollar limits and number of years; 
breaking out components of cost from the full funding requirements 
(e.g. Government Support and launch operations). Unfortunately, none of 
these options could address the bottom line of overall efficiency and 
affordability to these systems, and instead often created more 
inefficient behavior in order to balance budget issues. OSD-CAPE has 
collected and analyzed comprehensive satellite development and 
procurement data on both unclassified and classified programs over the 
past several years. The EASE strategy incorporates the cost 
efficiencies demonstrated in block buying of large satellite systems, 
within the constrained budgetary environment. The Air Force envisions 
implementing the EASE concept to drive down costs, improve stability in 
the fragile space industrial base, invest in technology that will lower 
risk for future programs, and achieve efficiencies through block buys 
of satellites.
    The satellite unit cost savings gained from this strategy will vary 
by program. The estimated savings for the Advanced Extremely High 
Frequency (AEHF) block buy in fiscal year 2012 is greater than 10 
percent but is contingent on contract negotiations. Through aggressive 
negotiations with the contractor, the Air Force will work to achieve 
the best possible savings for the taxpayer at AEHF contract award in 
fiscal year 2012. Savings realized through block buys will be 
reinvested in research and development for technology enhancement to 
advance mission area capabilities.

                        AIR FORCE ROLE IN LIBYA

    Question. Secretary Donley, now that there is an agreement that 
NATO will assume command and control responsibility for the no-fly zone 
over Libya and that the role of the U.S. forces is projected to 
decline, do you have a cost estimate for the Air Force operations to 
date and the anticipated costs to continue this level of support to 
coalition forces?
    Answer. The Air Force's costs for the first 14 days of operations 
were $75 million, or $5.4 million per day. With NATO assuming command 
and control responsibility for the no-fly zone over Libya, the 
projected costs will decrease to approximately $1.1 million per day. If 
operations continue through the fiscal year, the Air Force's estimate 
is an additional $199 million, bringing the total to $275 million for 
the entire operation. If the cost to replace munitions is included, 
this estimate would increase by $48 million, to $323 million.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

            LARGE MILITARY AIRCRAFT DEFENSE INDUSTRIAL BASE

    Question. The ability of the U.S. industrial base to support the 
production of large military aircraft is a growing concern. Today C-17 
production shutdown is imminent. A former Commander of Air Mobility 
Command testified before Congress that, I would like to see the C-17 
line stay open, because it's our only insurance policy right now if 
anything else goes wrong or if there's another development that we need 
to look at. Instead of preserving the insurance policy and the 
industrial base, we are conducting a study of how to store the tooling 
for potential future use. A restart of this production capability in 
the future would cost billions.
    How are we going to protect our vitally important strategic airlift 
capability and maintain America's current leadership in the area of 
producing large military aircraft?
    Answer. The Air Force is conducting a major Aircraft Industrial 
Base study that is expected to complete in the summer of 2011 and 
results from this study should help inform Air Force decisions 
impacting the industrial base. The Air Force is concerned with 
maintaining and enhancing its ability to perform all 12 of its Core 
Functions to include rapid global mobility. We depend on the industrial 
base to design, develop, produce, and sustain the components and 
systems used to perform these Core Functions; however, the simple 
reality is our leadership, in any of these functions, comes with a 
price tag. In the current fiscal planning environment, it is clear the 
Air Force must take a very critical look at its processes and programs 
to improve efficiencies and increase our internal multipliers. The 
results of these analyses will be reflected in future budget requests; 
however, it is imperative that our investment decisions provide the 
capabilities the Air Force needs to continue to fly, fight, and win in 
air, space, and cyber.
    Question. What are you doing to maintain the U.S. industrial base 
and ensure our Nation retains its technology and capability edge in 
supporting and winning future wars?
    Answer. The Air Force is concerned about the current and projected 
state of the domestic industrial base, particularly with respect to its 
capabilities to support emerging Air Force requirements across the 
three Air Force domains air, space, and cyber. We recognize that 
today's fiscal realities will drive some very difficult budget choices. 
In that regard, it becomes even more critical for the Air Force to make 
data-driven investment decisions whether on research, engineering 
design and development, sustainment, or weapon systems upgrades. The 
Air Force is working with the Office of the Secretary of Defense as it 
leads a sector-by sector, tier-by-tier review of the current network of 
the Department's suppliers. We expect this initial review, and 
subsequent updates, to provide all of the Department of Defense with a 
shared view of how the industrial base segments interface to support 
each of our capabilities. With this knowledge of the industrial base, 
the Air Force will be better informed so that our investment decisions 
can preserve the critical domestic industrial base capabilities needed 
for the Air Force to continue to fly, fight, and win in air, space, and 
cyber.
    Question. What alternatives do you see for future airlift 
production if the C-17 production line shuts it doors and closes?
    Answer. The United States has a diverse aerospace industrial base 
with sales in 2010 of over $200 billion as reported by the Aerospace 
Industries Association [Source: AIA, 2010 Year-end Review and Forecast, 
accessed at: http://www.aia-aerospace.org/assets/YE_Analysis.pdf on 
April 8, 2011]. While aircraft designed and produced to enable the Air 
Force to perform our rapid global mobility Core Function do differ from 
their commercial cousins, there are commonalties in areas such as 
avionics, propulsion, environmental controls, and others. In the past, 
the Air Force has leveraged both the intellectual and physical assets 
of the commercial aerospace industry and we expect to do so in the 
future. In those areas needed to provide military-unique capabilities, 
the Air Force uses its research and development programs to grow those 
capabilities.
    Question. Is modernizing the C-5 fleet the most cost effective 
means of meeting the U.S. military's strategic airlift requirements?
    Answer. During the C-5 Reliability Enhancement and Re-engining 
Program (RERP) Nunn-McCurdy certification process, the Department 
examined several alternatives for meeting strategic airlift 
requirements. In the final analysis, a restructured C-5 RERP (or C-5M) 
effort of 52 aircraft was certified as the least costly alternative to 
meet strategic airlift requirements. Subsequently, the Mobility 
Capability and Requirements Study 2016 (MCRS-16) demonstrated that a 
strategic airlift fleet with the capacity to provide 32.7 million ton 
miles/day (MTMs/D) was sufficient to satisfy the most demanding case in 
the study. The programmed fleet with a mix of 222 C-17s, 52 modernized 
C-5Ms, and 59 legacy C-5As provided MTMs/D in excess of the 32.7 MTM/D 
requirement. It is not cost effective for the Air Force to maintain 
aircraft in excess of requirements; therefore, a plan to retire 32 
excess C-5A aircraft will be executed assuming fiscal year 2010 
National Defense Authorization Act fleet limits are lifted by Congress.

                         HELICOPTER ACQUISITION

    Question. I understand that the Air Force is planning to replace 
their Combat Search and Rescue helicopters with an upgraded version of 
the HH-60 they are currently flying. I am also told that the Air Force 
plans to replace the UH-1 Huey's currently being used for force 
protection at the ICBM fields and for transport of government officials 
in the event of an emergency in Washington, DC with the Common Vertical 
Lift Support Platform (CVLSP). There seems to be a disconnect in the 
Air Force message regarding the sourcing of this helicopter. In 
February, Lieutenant General Jim Kowalski of the Air Force Global 
Strike Command told reporters he wanted to avoid competition while last 
week, Secretary Donley told the Senate Armed Services Committee that he 
is ``absolutely sure competition will be involved''.
    What is the Air Forces plan for sourcing the Common Vertical Lift 
Support Platform?
    Answer. General Schwartz and I approved proceeding with the Common 
Vertical Lift Support Platform acquisition program based on a full and 
open competition and contract award in fiscal year 2012 leading to an 
initial operational capability in fiscal year 2015. Following an 
Acquisition Strategy Panel in the third quarter of fiscal year 2011, we 
anticipate release of a request for proposal in the fourth quarter of 
fiscal year 2011 for a Non-Developmental Item/Off-The-Shelf solution to 
program requirements. Source selection will be conducted in fiscal year 
2012.
    Question. Will there be a competitive process or will the Air Force 
choose from a platform currently in production?
    Answer. The Common Vertical Lift Support Platform program will 
award a contract on the basis of a full and open competition. However, 
we anticipate the request for proposal to solicit a non-developmental, 
off-the-shelf solution to the meet the warfighters' requirements.
  increased intelligence surveillance and reconnaissance capabilities
    Question. I was pleased to hear this month that the final decision 
was made to base MC-12 Liberty aircraft at Beale Air Force Base in 
California. I understand that the MC-12 has been very successful in 
Iraq and Afghanistan and we are proud to host them. Over the years, the 
success of our manned and unmanned intelligence, surveillance, and 
reconnaissance systems has been well documented. There seems to be an 
insatiable need for the information that these assets provide. In the 
fiscal year 2012 budget, the Air Force wants to procure 48 MQ-9 Reaper 
unmanned aerial systems and 3 RQ-4 Global Hawk systems. With this 
increase in platforms, there will be in increase in the amount of 
information available that will need to be processed and analyzed.
    The intelligence professional force is already stretched thin, do 
you have enough personnel to support the increase in platforms both 
operationally and to exploit the intelligence?
    Answer. The Air Force is extremely proud of California's 
longstanding support for all of our intelligence, surveillance, and 
reconnaissance (ISR) assets and personnel that are hosted at Beale AFB, 
California, a relationship that I hope will continue to flourish after 
the MC-12W Liberty fleet arrives. The concern over the ability of our 
analysts to analyze the amount of data being produced by a variety of 
new ISR platforms and sensors is certainly a valid one; however, I 
believe the Air Force has planned, programmed, and is fielding the 
requisite number of analysts in order to support ongoing mission 
requirements. The Air Force is taking steps to maximize the analytical 
effectiveness of our ISR force by (1) partnering with the National 
Geospatial-Intelligence Agency, Air Force Research Laboratories, 
Defense Advanced Research Projects Agency, and industry to find and 
integrate automated target cueing and exploitation tools; and (2) 
federating mission exploitation with other military Services and 
Coalition partners.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                          KC-46A CLEAR WINNER

    Question. The words ``the clear winner'' were used when referring 
to the Air Forces selection of Boeing to build the new tanker aircraft. 
Can you elaborate on how the decision was made and what aspects of 
their bid delineated them as the clear winner, including value and 
cost?
    Answer. In accordance with Section M of the Request for Proposal, 
Boeing was rated acceptable for all subfactors in Mission Capability, 
Factor 1. Additionally, the difference between the Total Evaluated 
Prices in present value terms of the offerors was greater than 1 
percent, yielding substantial savings. The Total Evaluated Price (TEP) 
is the sum of the Total Proposal Price (TPP), Integrated Fleet Aerial 
Refueling Assessment (IFARA) Fleet Effectiveness adjustment, military 
construction adjustment, and Fuel Burn adjustment.
    Boeing was considered the clear winner because the TEP was more 
than 1 percent less than their competitors. In the overall source 
selection strategy, had both offerors' TEPs been within 1 percent of 
each other, the score of the non-mandatory capabilities would have been 
used to determine the winner. This was not the case as Boeing's TEP was 
more than 1 percent lower than their competitor's. Consequently, they 
were considered the ``clear'' winner.

                            KC-46A TIMELINE

    Question. What is the current timeline for the KC-46A Tanker 
Program?
    Answer. The contract for the KC-46A was awarded to Boeing on 
February 24, 2011. The Engineering Manufacturing Development (EMD) 
contract includes 4 RDT&E aircraft that will be converted after testing 
is complete into production representative aircraft. The initial flight 
of the KC-46A aircraft is scheduled for late calendar year 2014. By 
fourth quarter fiscal year 2017, the Air Force will have 18 operational 
aircraft. The KC-46 Program is working toward a late August Integrated 
Baseline Review (IBR) that will generate a Program Management Baseline 
(PMB). This Baseline may result in an overall schedule adjustment, 
although that is not anticipated.

                         KC-46A BASING PROCESS

    Question. What is the status of the KC-46A Tanker basing process 
and what is the timeline for the decisionmaking process?
    Answer. The Air Force is using its Strategic Basing Process to 
determine the future locations for the KC-46A. Our Strategic Basing 
process uses criteria-based analysis and the application of military 
judgment, linking mission and Combatant Commander requirements to 
installation attributes to identify locations that are best suited to 
support any given mission. The results of this analysis will be used to 
inform the basing decisions made by General Schwartz and me.
    In support of KC-46A basing decisions, Air Mobility Command (AMC) 
is developing basing criteria in a way that best quantifies both 
operational and support requirements related to KC-46A basing from a 
Total Force perspective. After the criteria are finalized and approved 
later this year, a briefing will be made available to interested 
Members of Congress and their staffs. AMC will then evaluate all Air 
Force installations against the criteria in an Enterprise-wide Look, to 
identify candidate bases.
    After the release of the candidate bases list, Air Force site 
survey teams will conduct detailed, on-the-ground, evaluations at each 
candidate location covering a range of operational and facility issues. 
The results of the site surveys will be briefed to General Schwartz and 
I, and we will then select the preferred and reasonable alternatives 
for beddown locations.
    Once the preferred and reasonable alternatives are identified, 
environmental analysis will be conducted in accordance with the 
National Environmental Policy Act. The site location decision will 
become final after the Environmental Impact Analysis Process is 
completed.

                   KC-46A MILESTONE IN BASING PROCESS

    Question. When is the next milestone in this basing decision?
    Answer. The Air Force is using its Strategic Basing Process to 
determine the future locations for the KC-46A. Our Strategic Basing 
process uses criteria-based analysis and the application of military 
judgment, linking mission and Combatant Commander requirements to 
installation attributes to identify locations that are best suited to 
support any given mission. The results of this analysis will be used to 
inform the basing decisions made by General Schwartz and me.
    The next milestone for the KC-basing process is determining the 
criteria on which to analyze potential beddown locations. Air Mobility 
Command is developing basing criteria in a way that best quantifies 
both operational and support requirements related to KC-46A basing. 
After the criteria are finalized and approved by the Secretary later in 
2011, a briefing will be made available to interested members of 
Congress and their staffs.

              KC-46A BASE SELECTION AND NUMBER OF AIRCRAFT

    Question. When do you expect to identify the bases selected to 
house the KC-46A and how many aircraft they will receive?
    Answer. The Air Force is using its Strategic Basing Process to 
determine the future locations for the KC-46A. Our Strategic Basing 
process uses criteria-based analysis and the application of military 
judgment, linking mission and Combatant Commander requirements to 
installation attributes to identify locations that are best suited to 
support any given mission. The results of this analysis will be used to 
inform the basing decisions made by General Schwartz and me.
    In support of KC-46A basing decisions, Air Mobility Command (AMC) 
is developing basing criteria in a way that best quantifies both 
operational and support requirements related to KC-46A basing. After 
the criteria are finalized and approved by the Secretary later in 2011, 
a briefing will be made available to interested Members of Congress and 
their staffs. AMC will then evaluate all Air Force installations 
against the criteria in an Enterprise-wide Look, to identify candidate 
bases.
    After the release of the candidate bases list, Air Force site 
survey teams will conduct detailed, on-the-ground, evaluations at each 
candidate location covering a range of operational and facility issues. 
The results of the site surveys will be briefed to General Schwartz and 
me who will then select the preferred and reasonable alternatives for 
beddown locations.
    Once the preferred and reasonable alternatives are identified, 
environmental analysis will be conducted in accordance with the 
National Environmental Policy Act (NEPA). The Secretary and Chief of 
Staff site location decision will become final after the Environmental 
Impact Analysis Process is completed. No specific dates/timelines have 
been identified for the preferred alternative decisions and no final 
decision dates can be identified until NEPA actions have been 
completed.

                         KC-46A BASING CRITERIA

    Question. When will the Air Force share the basing criteria for the 
KC-46A?
    Answer. The Air Force is using its Strategic Basing Process to 
determine the future locations for the KC-46A. Our Strategic Basing 
process uses criteria-based analysis and the application of military 
judgment, linking mission and Combatant Commander requirements to 
installation attributes to identify locations that are best suited to 
support any given mission. The results of this analysis will be used to 
inform the basing decisions made by General Schwartz and me.
    In support of KC-46A basing decisions, Air Mobility Command is 
developing basing criteria in a way that best quantifies both 
operational and support requirements related to KC-46A basing. After 
the criteria are finalized and approved by the Secretary later in 2011, 
a briefing will be made available to interested Members of Congress and 
their staffs.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson

                 B-1 FLEET REDUCTIONS AND CONSOLIDATION

    Question. During the last round of B-1 fleet reduction and 
consolidation, the Air Force said that they would reinvest the savings 
into the B-1 fleet and additional investments would be made in B-1 
modernization. Unfortunately, over the years, much of that funding did 
not materialize. Now we again find ourselves being told that there's a 
need to cut the B-1 fleet and that some of the savings would be 
reinvested in B-1 modernization.
    Secretary Donley, what reassurances can you provide that this time 
when the Air Force says it will reinvest the savings, it means it?
    Answer. During the previous round of B-1 fleet reductions and 
consolidation, the Air Force did reinvest in capability enhancements 
based on anticipated program performance. Today's ongoing modernization 
efforts, critical to the continued viability of the B-1 fleet, were 
born as a result of funding made available from previous fleet 
reductions, as well as the cancellation of the Defensive Systems 
Upgrade Program in 2002 due to cost and schedule overruns. The Air 
Force fully intends to make the required investments in B-1 
modernization to ensure the remaining fleet is viable to conduct its 
assigned missions. These actions also contribute toward the objectives 
of the 2010 Quadrennial Defense Review; to rebalance capabilities to 
prevail in today's war while building the capabilities needed to deal 
with future threats.
    The retirement of six B-1s will provide a total savings of $61.9 
million in fiscal year 2012 in procurement and sustainment funding. Of 
these savings, the Air Force is reinvesting $32.9 million in fiscal 
year 2012 into critical B-1 sustainment and modernization programs to 
ensure the health of the remaining fleet. These programs include 
procurement and installation of Vertical Situation Display Upgrade and 
Central Integrated Test System sustainment efforts, Fully Integrated 
Data Link capability upgrade, and procurement of critical initial 
spares for these modifications. The Department applied the remainder of 
the savings from the B-1 reduction to other Air Force and Department of 
Defense priorities including strengthening the nuclear enterprise.
    Question. I appreciate the Air Force's efforts to pursue 
alternative fuels. I am told that alternative fuel producers would 
require contracts of 15 to 20 years in order to attract the private 
financing needed to build a ``first-of-a-kind'' plant.
    Does the Air Force have sufficient statutory authority to enter 
into contracts of this length for alternative fuels?
    As the largest buyer of fuel within the government, DOD could 
catalyze the development of multiple plants and technologies to produce 
domestic alternative fuels, particularly jet fuel. In order to do so, 
it is my understanding that DOD would need to enter into long-term (15-
20 year) supply agreements with fuel producers, which would allow those 
producers to attract private investment to build the plant(s) that 
would make the fuel to meet the military's needs. However, currently 
there is uncertainty surrounding what authority the Pentagon has to 
enter into long term agreements.
    Question. How do you anticipate using these contracts to get new 
domestically produced alternative fuel plants up and running to meet 
the military's goals?
    Answer. Currently, over 99 percent of the Air Force fleet is 
certified for unrestricted operational use of a 50/50 synthetic fuel 
blend, where the synthetic component is produced via the Fischer-
Tropsch process. The Air Force is in the process of certifying the RQ-
4, commonly called the Global Hawk, which represents the only remaining 
Air force-owned platform not yet certified, and is working with the 
Navy to test and certify the CV-22 and F-35. Both airframes are Navy-
owned assets.
    The Air Force is positioning itself to integrate cost competitive, 
environmentally friendly, domestically produced alternative fuel blends 
by 2016, and will purchase available alternative fuel blends if they 
meet the Air Force technical, legal, environmental and economic 
requirements. Currently, there is no significant commercial scale 
market in place that is developing sufficient enough quantities at 
price cost competitive with traditional JP-8; however, even the limited 
production is yielding falling prices for alternative aviation fuels.
    Question. Can you also tell me when the Air Force expects to 
conclude testing of Fischer-Tropsch fuels?
    Answer. Certification activities are expected to be completed for 
the synthetic fuel blend by the end of 2011 completion. To date, no 
performance or safety-of-flight anomalies have been identified.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                NEW PENETRATING BOMBER AIRCRAFT PROGRAM

    Question. Secretary Donley, how is the Air Force going to be able 
to afford to buy this new long-range bomber given other high costs Air 
Force programs, such as, the Joint Strike Fighter aircraft, the new 
aerial refueling tanker aircraft, and satellite programs?
    Answer. The fiscal year 2012 Air Force budget request represents a 
careful balance of resources among Air Force Core Functions necessary 
to implement the President's National Security Strategy and our 
Nation's defense. The Air Force realizes that it must balance between 
today's operations and investments to develop capabilities for the 
future.
    The fiscal year 2012 budget request incorporates over $33 billion 
in efficiencies across the Future Years Defense Program to improve 
business practices and eliminate excess troubled or lower priority 
programs. By consolidating organizational structures, improving 
acquisition processes, procurement, and streamlining operations, we 
have been able to increase investment in Core Functions, such as global 
precision attack in ISR in space and air superiority, and enhance 
combat capability through such programs as the new penetrating bomber.
    The DOD aircraft procurement plan for fiscal years 2012-2041, 
presented to Congress on April 12, 2011 provides a comprehensive look 
at the Department of Defense's plan to ensure we have the capabilities 
needed to meet current and projected national security objectives, 
while prudently balancing security risks against fiscal realities.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

             KC-46A BASING AND ACTIVE DUTY ASSOCIATE UNITS

    Question. Secretary Donley, it was of interest to me that of the 
National Guard bases among the 11 bases included in the KC-X RFP each 
of them had an active duty ``associate unit.'' Given your previous 
comments that these bases are not tied to the actual bed down selection 
process, can you reassure the committee that the presence of an 
associate Active Duty Unit will not be a requirement for National Guard 
candidate bases competing in the KC-46A basing process?
    Answer. The Air Force is using its Strategic Basing Process to 
determine the future locations for the KC-46A. Our Strategic Basing 
process uses criteria-based analysis and the application of military 
judgment, linking mission and Combatant Commander requirements to 
installation attributes to identify locations that are best suited to 
support any given mission. The results of this analysis will be used to 
inform the basing decisions made by General Schwartz and me. There is 
nothing in this process to preclude an Air National Guard base from 
competing.
    In support of KC-46A basing decisions, Air Mobility Command (AMC) 
is developing basing criteria in a way that best quantifies both 
operational and support requirements related to KC-46A basing from a 
Total Force perspective. After the criteria are finalized and approved, 
a briefing will be made available to interested Members of Congress and 
their staffs. AMC will then evaluate all Air Force installations 
against the criteria in an Enterprise-wide Look, to identify candidate 
bases.
    After the release of the candidate bases list, Air Force site 
survey teams will conduct detailed, on-the-ground, evaluations at each 
candidate location covering a range of operational and facility issues. 
The results of the site surveys will be briefed to General Schwartz and 
I, and we will then select the preferred and reasonable alternatives 
for beddown locations.
    Once the preferred and reasonable alternatives are identified, 
environmental analysis will be conducted in accordance with the 
National Environmental Policy Act. The site location decision will 
become final after the Environmental Impact Analysis Process is 
completed.
                                 ______
                                 
           Questions Submitted to General Norton A. Schwartz
            Questions Submitted by Chairman Daniel K. Inouye

                          HEALTHCARE PROPOSALS

    Question. General Schwartz, I believe that the healthcare benefits 
we provide to our servicemembers and their families are one of the most 
basic benefits we can provide to the men and women serving our Nation 
and I also believe it is one of the most effective recruiting and 
retention tools you have at your disposal. The Department of Defense is 
proposing several changes to the military health system that could go 
into effect as early as October of this year.
    Do you support these cost saving measures? Could you please explain 
what impact they might have on recruiting and retention?
    Answer. As stated in our February 11, 2011, letter, I strongly 
support these modest changes to the military healthcare program in the 
fiscal year 2012 budget request.
    I believe we have included the appropriate safeguards to ensure a 
careful and measured approach to protect our most vulnerable 
beneficiaries, while continuing to provide free healthcare to our 
active duty personnel. Additionally, all Services and the TRICARE 
Management Activity have looked internally to identify efficiencies and 
incorporate those into the system before the decision to pursue these 
changes.
    Our commitment to our beneficiaries remains unchanged, with 
continued investment in wounded warrior care and enhanced access to 
superior health services to all our beneficiaries. I believe these 
changes to the military health system are critical to our continuing to 
provide the finest healthcare benefit in the world while also slowing 
the cost growth in that same healthcare system.
    While there are many dynamics that impact military recruiting and 
retention, we do not believe the proposed change to TRICARE fees for 
working age retirees will adversely impact our recruiting and 
retention. Without these adjustments, we will need to reduce funding in 
other areas such as those programs supporting Airmen and their 
families. The latter funding reductions would more adversely impact 
recruiting and retention.

            REMOTELY PILOTED AIRCRAFT PERSONNEL REQUIREMENTS

    Question. General Schwartz, what is the status of using technology 
to ease some of the burden of processing, exploiting, and disseminating 
the additional data derived from the increase in Remotely Piloted 
Aircraft flights?
    Answer. The Air Force is aware of the enormous tasking, processing, 
exploitation, and dissemination burden that the rapid expansion in the 
number of intelligence, surveillance, and reconnaissance (ISR) Remotely 
Piloted Aircraft missions is placing on our ISR analysts. While 
automation cannot completely replace the need for human analysis, the 
Air Force is taking the following steps to maximize the analytical 
effectiveness of our ISR force:
  --Partnering with the National Geospatial-Intelligence Agency, Air 
        Force Research Laboratories, Defense Advanced Research Projects 
        Agency, and industry to find and integrate automated target 
        cueing and exploitation tools that reduce overall analyst 
        workload.
  --Working with other military Services and Coalition partners to 
        federate mission data, employing technology and forming 
        habitual relationships to bring to bear more intelligence 
        expertise from distributed locations.
    The long-term solution for reducing the burden on Air Force 
analysts is through the continuous evaluation and integration of 
available technologies while also leveraging industry, other Service, 
and intelligence community investment in emerging technologies.

                        AIR FORCE ROLE IN LIBYA

    Question. General Schwartz, now that there is an agreement that 
NATO will assume command and control responsibility for the no-fly zone 
over Libya and that the role of the U.S. forces is projected to 
decline, how dependent will the coalition air forces be on continuing 
U.S. support for fighter and tanker aircraft and intelligence, 
surveillance, and reconnaissance (ISR) assets to enforce the no-fly 
zone?
    Answer. The Air Force will provide tanker and ISR support to meet 
NATO requirements. Strike support is in reserve and will require 
additional coordination between NATO and the United States.
    Question. Will you have to reallocate assets from other ongoing 
operations in the region to continue to provide this level of support 
to the coalition?
    Answer. No reallocation is anticipated at this time.
    Question. How long do you expect this operation to continue?
    Answer. The Air Force cannot speculate on the length of the Libya 
operation; however, the Air Force will provide capabilities as long as 
our civilian leadership deems this support vital to U.S. national 
interests.
    Question. General Schwartz, could you tell us what types of 
aircraft and capabilities the coalition nations are contributing to 
enforce the no-fly zone.
    Answer. Coalition forces provide the following capabilities: Strike 
(Mirage, Tornado, F-16); Air Intercept (Rafale, F-16); Command and 
Control (E-2, E-3); Air Refueling (KC-135F, VC-10, KC-150); 
Intelligence, Surveillance, Reconnaissance (ISR) (specific aircraft are 
classified); and Theater Airlift (C-160).

                         ROLE FOR F-22 IN LIBYA

    Question. General Schwartz, there has been speculation in the press 
as to why the F-22 has not participated in Operation Odyssey Dawn over 
Libya. Could you explain why the F-22 was not used?
    Answer. Whenever forces are required to support an operation, they 
are allocated via Global Force Management, a joint structure to 
identify and provide the most appropriate and responsive force or 
capability that best meets the Combatant Commander's requirement. For 
Operation Odyssey Dawn, adequate capabilities were available in Europe 
to meet the Combatant Commander's needs.
    Question. Was the F-22's limited air-to-ground capability a factor 
in the decision not to deploy it?
    Answer. The F-22's air-to-ground capability was not a factor in the 
deployment decision. The Air Force had sufficient assets available in 
the area of responsibility to satisfy the Combatant Commander's request 
to accomplish the desired mission sets.
    Question. General Schwartz, do you have a funded program to upgrade 
the F-22's air-to-ground capability? How much will it cost?
    Answer. Yes, the F-22 has a funded program to upgrade the F-22s 
air-to-ground capability. Follow-on Test and Evaluation for F-22 
Increment 3.1 began in January 2011 and is expected to be complete in 
June 2011 and will begin fielding in July 2011. Increment 3.1 will add 
air-to-ground capabilities including electronic location of surface 
threat emitters, radar ground mapping, and carriage of small diameter 
bombs.
    Note, these upgrades are in addition to current F-22 air-to-ground 
capabilities provided through internal carriage and supersonic delivery 
of two 1,000 pound Joint Direct Attack Munitions.
    The fully funded Increment 3.1 retrofit program will cost $150 
million in fiscal year 2011 through fiscal year 2016.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl

         PRIMARY AIRCRAFT AUTHORIZED BY TRUAX FIELD, WISCONSIN

    Question. Recently, the Air Force and National Guard Bureau 
announced a decision to reduce the Primary Aircraft Authorization at 
Truax Field in Madison, Wisconsin from 18 to 15 F-16 fighters. I 
understand that this was part of a larger reduction in the Primary 
Aircraft Authorization for F-16 fighters, which is being implemented 
over several years at many bases.
    Did the Air Force consult the leadership of the Wisconsin Air 
National Guard in this decision? When was the decision made to reduce 
the Primary Aircraft Authorization at Truax Field, and when were the 
Wisconsin Air National Guard leaders informed of the decision?
    Answer. The decision to reduce the Primary Aircraft Authorization 
at Truax Field was made early in 2006 as part of the fiscal year 2008 
President's budget request. The leadership of the Wisconsin Air 
National Guard was informed of this action in December 2010 by the 
Director of the Air National Guard, approximately 4 months prior to the 
planned official force structure announcement.
    Question. I understand that the decision to reduce the Primary 
Aircraft Authorization at Truax Field will lead to the loss of one 
full-time technician job and 76 drill-status guardsmen.
    How will the people in these positions transition into other jobs 
and responsibilities with the Wisconsin Air National Guard?
    Answer. With regard to the 76 drill-status guardsmen positions that 
will be affected by the reduction of primary aircraft authorization at 
Truax Field, there are provisions in written guidance, (Air National 
Guard Instruction 36-2101), that allow for the reassignment of 
personnel based on force structure changes. These force management 
decisions would be made by the wing commander and the squadron 
commanders of the units affected in conjunction with State Headquarters 
Human Resources department. The National Guard Bureau would function in 
an advisory capacity to assist units with interpreting the above 
mentioned guidance and on how best to apply it to their situations.
    In regard to the one full-time technician who is impacted by the 
reduction of the primary aircraft authorization at Truax Field, 
Wisconsin, there are provisions in written guidance, reference TPR 300, 
The Technician Personnel Regulation and TPR 303, The Military 
Technician Compatibility Program, that provide procedural directions 
based on force structure changes and manpower criteria. The National 
Guard Bureau, J1-Technician Program Division, will function in an 
advisory capacity to assist the Wisconsin Joint Forces Headquarters-HRO 
to execute the proper notification procedures, in compliance with the 
Technician Program Regulations, to reassign this technician into 
another full-time technician position that will closely align with 
their current position series, pay, duties, and responsibilities.
    Question. On March 18, 2011, the Air Force Magazine reported that 
senior Air Force leaders are concerned about a shortfall in fighters 
over the next several years.
    Given this concern, is this the right time to reduce the Primary 
Aircraft Authorization for F-16 fighters in the Air National Guard?
    Answer. The Air Force manages a balanced Total Force mix of 
approximately 1,200 Primary Mission Aircraft Inventory and 2,000 Total 
Aircraft Inventory combat fighter aircraft to execute the National 
Defense Strategy at a moderate risk level. The small aircraft reduction 
in the Air National Guard F-16 fleet transitions aircraft to the Backup 
Aircraft Inventory while retaining them in the total aircraft 
inventory. The Air Force's warfighting analysis accounted for this 
planned F-16 reduction over the recent budgetary cycles since it was 
implemented in the fiscal year 2008 program. The reduction does not 
increase current shortfall projections, but rather was a deliberate 
decision to accept near term risk while bridging to a fifth generation 
fleet.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                ANALYSIS OF ALTERNATIVES ON JSTARS GMTI

    Question. We understand that Air Combat Command (ACC) is finalizing 
an Analysis of Alternatives (AOA) on the Joint STARS Ground Moving 
Target Indicator (GMTI) Mission Area, which is planned to be completed 
this year.
    Is the Air Force looking at efficient alternatives such as existing 
systems like the Navy P-8 that DOD has already invested in as an 
alternative for Joint STARS?
    Answer. The ACC analysis underway is studying 29 alternatives 
ranging from existing systems to future concepts. The 29 alternatives 
being evaluated were provided by both the Office of the Secretary of 
Defense, Cost Assessment and Program Evaluation (OSD-CAPE) and 
identified via industry days. The analysis is considering the P-8 
option, future KC-X platforms, a Business Jet, multiple remotely 
piloted aircraft (RPA), and an airship among others.
    Question. Would the re-engining of the E-8 platform create a 
significant increase in the fleet's overall mission capability and what 
is the cost of that program?
    Answer. We believe re-engining the E-8 would increase overall 
mission capability. However, until the results of both the analysis of 
alternatives and the Fleet Viability Board are complete and presented, 
it is premature to invest in fleet-wide re-engining.
    Question. Beyond re-engining, are the current E-8 cockpits fully 
compliant with all operational requirements?
    Answer. Yes, the E-8 cockpit is currently fully compliant. ACC is 
working an avionics Diminishing Manufacturing Source (DMS) program to 
ensure the E-8 is compliant with pending FAA/ICAO regulations.
    Question. What would be needed to upgrade the E-8 to the same 
capabilities as a P-8 AGS and how much would the program cost?
    Answer. Until the results of both the analysis of alternatives and 
the Fleet Viability Board are completed and presented, it is premature 
to speculate in favor of one system or another. We will know much more 
as these studies report out.
    Question. When will the new AOA be completed?
    Answer. The analysis of alternatives is scheduled to complete by 
September 2011.
    Question. What specifically will be addressed in the AOA?
    Answer. As detailed in the original Resource Management Directive 
700 direction, the analysis of alternatives team will evaluate materiel 
solutions to fulfill all, or part of, the Departments overall Synthetic 
Aperture Radar/MTI requirements. The team was further instructed by 
OSD-CAPE to investigate alternatives to replace, refurbish, modernize 
JSTARS and to support acquisition of JSTARS replacement, refurbishment 
or other SAR/MTI system(s).
    Question. Will the Air Force consider other platforms in lieu of 
the E-8, such as capitalizing on other DOD programs with similar 
requirements?
    Answer. The ACC analysis underway is studying 29 alternatives which 
were provided by both the Office of the Secretary of Defense, Cost 
Assessment and Program Evaluation (OSD-CAPE) and identified via 
industry days. The analysis is considering the P-8 option, future KC-X 
platforms, a Business Jet, multiple remotely piloted aircraft, and an 
airship among others.
                                 ______
                                 
               Question Submitted by Senator Tim Johnson

                             B-1S IN LIBYA

    Question. To what extent are B-1s being used in Libya?
    Answer. B-1B aircraft based in Continental United States (CONUS) 
were utilized in support of Operation Odyssey Dawn. A pair of B-1 
aircraft conducted two sorties, striking over 40 fixed targets in Libya 
in order to protect the Libyan population as outlined in United Nation 
Security Council Resolution 1973. This marked the first time CONUS B-1 
aircraft were launched to strike overseas targets. CONUS aircraft were 
utilized to minimize impact to OND/OEF missions. Currently, B-1 
aircraft are not directly tasked in support of Operation Unified 
Protector (previously Operation Odyssey Dawn); however, aircraft remain 
postured to support Global Strike Command missions if tasked.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                NEW PENETRATING BOMBER AIRCRAFT PROGRAM

    Question. General Schwartz, your prepared testimony indicates that 
the Air Force is developing a new long-range, penetrating bomber with a 
focus on affordability. Our experience with the B-1 and B-2 bomber 
programs resulted in very high development and production costs for 
relatively few aircraft. Can you share with the Committee in further 
detail how the Air Force plans to meet requirements while controlling 
costs and maintaining schedule on this new bomber program?
    Answer. The new penetrating bomber program is very much focused on 
affordability, constraining requirements, and lowering technological 
risk. The program will use a streamlined management and acquisition 
approach to balance capability with affordability. The new bomber will 
use existing, mature technologies and leverage systems and subsystems 
from other programs to the maximum extent practical. Additionally, the 
Air Force will limit requirements based on affordability using 
realistic cost targets to inform capability and cost trade-offs.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

                        MILITARY SEXUAL ASSAULT

    Question. Concerning sexual assault in the Air Force, can you 
comment on what is being done on the front lines of this fight to 
protect airmen. Is specialized training given to the most vulnerable, 
which studies consistently indicate are the female, junior enlisted?
    Answer. All Airmen receive initial accessions training, that is 
scenario/vignette based education, when they first enter military 
service that incorporates learning what constitutes sexual assault; 
differences between offenders, victims, facilitators, and bystanders; 
and effective risk reduction strategies that include the following:
  --Clearly communicate boundaries. If you are in any kind of 
        relationship, talk with your partner. If you are unsure about 
        what your partner wants or is thinking, ask. Don't make 
        assumptions. State your boundaries and be aware of non-verbal 
        communications that could send unintended messages.
  --Assert yourself. If you don't want to do something, say ``No'' 
        clearly. Avoid phrases meant to let him/her down easy; these 
        are often misunderstood. ``I don't know,'' ``I don't think 
        so,'' and ``We'll see,'' can each be interpreted as ``Keep on 
        coming.'' When you mean no, say, ``No!''
  --Be ``situation smart.'' Don't drink alone with people you do not 
        know well or who are all drinking. Leave a public place with a 
        peer, not alone. Don't go to a room after a night of drinking 
        alone with another person.
  --Use the buddy system. Your job may be to protect your wingman--but 
        it's also your wingman's job to protect you. Make a plan for 
        getting home together. Give each other feedback on how much 
        you've been drinking to reduce the risk of assault. Develop a 
        signal you can use when you are in an uncomfortable situation.
  --Be smart if using alcohol. Drink responsibly and don't accept 
        ``freebies.'' Watch out for dates who try to get you drunk or 
        high. Don't EVER leave your drink alone or accept a drink from 
        someone else. Date rape drugs are used by perpetrators to take 
        advantage of victims.
  --Trust your instincts. You know when things don't feel right or 
        safe. Have the intelligence and strength to trust yourself in 
        those situations, and get out of danger. Tell your wingman you 
        need support to get out now--then do it. Furthermore, annual 
        refresher training incorporates the cycle of sexual assault, 
        circumstances in which it occurs, and broad awareness of 
        situations when Airmen may be most at risk. The Air Force is 
        committed to eliminating behavior that may lead to sexual 
        assault and implemented bystander intervention training (BIT): 
        BIT is designed based on specific target populations for women, 
        men, and leaders. Bystander intervention is a strategy that 
        motivates and mobilizes people who may see, hear or otherwise 
        recognize signs of an inappropriate or unsafe situation, to 
        act. Using an interactive and dynamic model, the 90-minute 
        courses provide basic education about recognizing dangerous 
        situations/behavior, analyzing for best approach, and 
        practicing effective bystander intervention strategies. The Air 
        Force has a keen focus on key learning objectives for all of 
        its target populations; here are key learning objectives for 
        the women's (includes junior enlisted members) module:
    --Raise awareness of female Airmen regarding the continuum of 
            behaviors that can lead to a sexual assault.
    --Empower female Airmen to develop concrete Bystander Intervention 
            Strategies and problem solving competencies.
    --Foster female Airman responsibility, for ourselves and fellow 
            Airmen, in addressing inappropriate sexual behaviors at all 
            levels of conduct.
      Additionally, the Air Force is finalizing a Risk Reduction module 
        designed uniquely for the female most at-risk population. The 
        design of Risk Reduction includes education for those actions 
        and choices individuals may make to ensure their own safety and 
        increase situational awareness. However, this must be done 
        carefully to avoid any inherent victim self-blame/guilt if 
        sexually assaulted even after following all possible safety 
        measures.
    Question. Alcohol is prominent as a factor in reported sexual 
assaults and from reviewing specific cases, is an obstacle to 
prosecuting offenders. How are you addressing the role of alcohol in 
your prevention efforts?
    Answer. The Air Force remains committed to eliminating situations 
and circumstances which may lead to sexual assault through educating 
Airmen in effective bystander intervention training (BIT) in separate 
sessions for men, women, and leaders. Since the majority of known 
reports involve alcohol, and the vast majority of sexual assaults are 
committed by males, the men's BIT module has specific learning points 
focused exclusively on alcohol related sexual assault. As part of the 
interactive, facilitated sessions, dialogue introduced includes:
  --People are always looking for a bright line where alcohol and 
        consent are involved. There isn't one. The legal definition of 
        consent in this area is ``Words or overt acts indicating a 
        freely given agreement to the sexual conduct at issue by a 
        competent person.'' When alcohol is involved, you can't consent 
        if you are ``substantially incapable of appraising the nature 
        of the sexual conduct at issue due to mental impairment or 
        unconsciousness resulting from consumption of alcohol, drugs, a 
        similar substance, or otherwise.''
  --You have to look at the facts of each situation, and if there isn't 
        ``freely given agreement to the sexual conduct at issue by a 
        competent person'' because the person was too drunk to 
        understand what was going on, there isn't consent.
  --Participants are provided an alcohol based scenario to further 
        discussion of the issues surrounding alcohol and sexual 
        consent. This is a highly realistic and common scenario. Most 
        Airmen have been in this situation, either as participants or 
        observers.
  --Alcohol impairs cognitive functioning, specifically increases focus 
        on short-term positive outcomes, and lessens consideration of 
        long-term negative consequences of actions. Alcohol makes it 
        easier for individuals to cross their personal violence 
        threshold and feel justified for using force. Perpetrator 
        motives may vary. It takes multiple motives and the ``right'' 
        circumstances when sexual assault may occur. Alcohol increases 
        the likelihood that an individual will cross his/her personal 
        violence threshold more easily.
      After consuming two standard alcoholic drinks, cognitive 
        impairments may include: Abstraction. conceptualization, 
        planning, problem solving, integration of conflicting 
        information, response inhibition, and focus on short-term 
        rewards.
  --The facilitated learning also includes highlighting some ``pre-
        game'' strategies that offenders develop in trying to 
        facilitate sex for themselves and their friends. Examples 
        include having punch with higher alcohol content at parties for 
        women to drink and beer for men.
      Again, the Air Force remains committed to eliminating situations 
        and circumstances which may lead to sexual assault.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. And the Defense Subcommittee will 
reconvene next Wednesday, April 6, at 10 a.m., at which time we 
will receive testimony from defense health activities.
    We stand in recess.
    [Whereupon, at 11:55 a.m., Wednesday, March 30, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
April 6.]

</pre></body></html>
